                         Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices                                         14289

   6. Problems or adverse events             Background                                      • conducting effective training and
connected with a shortage of                    The creation of compliance program         education;
pharmacists, e.g., medication errors;        guidances is a major initiative of the          • developing effective lines of
   7. The impact a drug benefit for the      OIG in its effort to engage the private       communication;
Medicare population might have on            health care community in combating              • enforcing standards through well-
prescription volume and the demand for       fraud and abuse. In the last several          publicized disciplinary guidelines;
pharmacists;                                                                                 • conducting internal monitoring and
                                             years, the OIG has developed and issued
                                                                                           auditing; and
   8. Uses of automation or technology to    compliance program guidances directed
                                                                                             • responding promptly to detected
assist pharmacists, such as the use of       at the following segments of the health
                                                                                           offenses and developing corrective
electronic transmission of prescriptions,    care industry: the hospital industry;
                                                                                           action.
methods of streamlining dispensing           home health agencies; clinical                  These elements are contained in
processes, and technologies that may be      laboratories; third-party medical billing     previous guidances issued by the OIG.
under development to improve                 companies; the durable medical                As with previously-issued guidances,
efficiency of pharmacists in their duties;   equipment, prosthetics, orthotics and
                                                                                           this compliance program guidance
                                             supply industry; hospices; and
   9. The impact of Internet and mail                                                      represents the OIG’s suggestions on how
                                             Medicare+Choice organizations offering
order pharmacies on the demand for                                                         nursing facilities can best establish
                                             coordinated care plans. The
pharmacists; and                                                                           internal controls and prevent fraudulent
                                             development of these types of
   10. Existing information on the                                                         activities. The contents of this guidance
                                             compliance program guidances is based
current pharmacist education process;                                                      should not be viewed as mandatory or
                                             on our belief that a health care provider
in particular, applications to pharmacy                                                    as an exclusive discussion of the
                                             can use internal controls to more
programs, the impact that the shift to                                                     advisable elements of a compliance
                                             efficiently monitor adherence to
the doctor of pharmacy as the first                                                        program; the document is intended to
                                             applicable statutes, regulations and
professional degree may have on              program requirements.                         present voluntary guidance to the
pharmacy supply, trends in graduates            Copies of these compliance program         industry and not represent binding
taking residencies, and students’ job        guidances can be found on the OIG web         standards for nursing facilities.
preferences.                                 site at http://www.hhs.gov/oig.               Office of Inspector General’s
  Dated: March 9, 2000.                      Developing Compliance Program                 Compliance Program Guidance for
Claude Earl Fox,                             Guidance for Nursing Facilities               Nursing Facilities
Administrator.                                  On December 18, 1998, the OIG              I. Introduction
[FR Doc. 00–6427 Filed 3–15–00; 8:45 am]     published a solicitation notice seeking          The Office of Inspector General (OIG)
BILLING CODE 4160–15–P                       information and recommendations for           of the Department of Health and Human
                                             developing formal guidance for nursing        Services (DHHS) continues in its efforts
                                             facilities (63 FR 70137). In response to      to promote voluntarily implemented
DEPARTMENT OF HEALTH AND                     that solicitation notice, the OIG received    compliance programs for the health care
HUMAN SERVICES                               16 comments from various outside              industry.1 This compliance guidance is
                                             sources. We carefully considered those        intended to assist nursing facilities 2
Office of Inspector General                  comments, as well as previous OIG             develop and implement internal
Publication of the OIG Compliance            publications, such as other compliance        controls and procedures that promote
Program Guidance for Nursing                 program guidances and Special Fraud           adherence to applicable statutes and
Facilities                                   Alerts, in developing a compliance            regulations of the Federal health care
                                             program guidance for nursing facilities.      programs 3 and private insurance
AGENCY: Office of Inspector General          In addition, we have taken into account
(OIG), HHS.                                  past and recent fraud investigations             1 The OIG1 has issued compliance program

                                             conducted by the OIG’s Office of              guidances for the following seven industry sectors:
ACTION:   Notice.                            Investigations and the Department of          hospitals, clinical laboratories, home health
                                                                                           agencies, durable medical equipment suppliers,
                                             Justice, and have consulted with the          third-party medical billing companies, hospices,
SUMMARY:    This Federal Register notice     Health Care Financing Administration.         and Medicare+Choice organizations offering
sets forth the recently issued               In an effort to ensure that all parties had   coordinated care plans. Over the next year, the OIG
Compliance Program Guidance for              a reasonable opportunity to provide           plans to issue compliance guidances for ambulance
Nursing Facilities developed by the          input into a final product, the draft         companies and individual and small group
Office of Inspector General (OIG). The                                                     physician practices.
                                             guidance for nursing facilities was              2 For the purpose of this guidance, the term
OIG has previously developed and             published in the Federal Register on          ‘‘nursing facility’’ includes a skilled nursing facility
published compliance program                 October 29, 1999 (64 FR 58419) for            (SNF) and a nursing facility (NF) that meet the
guidance focused on several other areas      further comments and                          requirements of sections 1819 and 1919 of the
and aspects of the health care industry.                                                   Social Security Act (Act), respectively, 42 U.S.C.
                                             recommendations.                              1395i–3 and 42 U.S.C. 1396r. Where appropriate,
We believe that the development and                                                        we distinguish between SNFs and other nursing
issuance of this compliance program          Elements for an Effective Compliance          facilities.
guidance for nursing facilities will         Program                                          3 The term ‘‘Federal health care programs’’

continue to serve as a positive step           This compliance guidance for nursing        includes any plan or program that provides health
toward promoting a higher level of                                                         benefits, whether directly, through insurance, or
                                             facilities contains seven elements that       otherwise, which is funded directly, in whole or in
ethical and lawful conduct throughout        the OIG has determined to be                  part, by the United States Government (i.e., via
the entire health care industry.             fundamental to an effective compliance        programs such as Medicare, Federal Employees
                                             program:                                      Health Benefits Act, Federal Employees’
FOR FURTHER INFORMATION CONTACT:
                                               • implementing written policies,            Compensation Act, Black Lung, or the Longshore
Nicole C. Hall, Office of Counsel to the                                                   and Harbor Worker’s Compensation Act) or any
                                             procedures and standards of conduct;          State health plan (e.g., Medicaid, or a program
Inspector General, (202) 619–2078.             • designating a compliance officer          receiving funds from block grants for social services
SUPPLEMENTARY INFORMATION:                   and compliance committee;                                                                   Continued
14290                          Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices

program requirements. Compliance                          addition to considering these comments                       • a mechanism to encourage
programs strengthen Government efforts                    in drafting this guidance, we reviewed                    employees to report potential problems
to prevent and reduce fraud and abuse,                    previous OIG publications, including                      and allow for appropriate internal
as well as further the mission of all                     OIG Special Fraud Alerts and OIG                          inquiry and corrective action;
nursing facilities to provide quality care                Medicare Advisory Bulletins, as well as                      • a centralized source for distributing
to their residents.                                       reports issued by OIG’s Office of Audit                   information on health care statutes,
   Through this document, the OIG                         Services (OAS) and Office of Evaluation                   regulations and other program
provides its views on the fundamental                     and Inspections (OEI) affecting the                       directives; 7
elements of nursing facility compliance                   nursing home industry.6 In addition, we                      • a mechanism to improve internal
programs, as well as the principles that                  relied on the experience gained from                      communications;
each nursing facility should consider                     fraud investigations of nursing home                         • procedures that allow prompt and
when developing and implementing an                       operators conducted by OIG’s Office of                    thorough investigation of alleged
effective compliance program. While                       Investigations, the Department of                         misconduct; and
this document presents basic procedural                   Justice, and the Medicaid Fraud Control                      • through early detection and
and structural guidance for designing a                   Units.                                                    reporting, minimizing loss to the
compliance program, it is not in and of                                                                             Government from false claims, and
                                                          A. Benefits of a Compliance Program                       thereby reducing the nursing facility’s
itself a compliance program. Rather, it is
a set of guidelines that nursing facilities                  The OIG believes a comprehensive                       exposure to civil damages and penalties,
should consider when developing and                       compliance program provides a                             criminal sanctions, and administrative
implementing a compliance program.                        mechanism that brings the public and                      remedies.8
For those nursing facilities that have an                 private sectors together to reach mutual                     The OIG recognizes that the
existing program or are already in the                    goals of reducing fraud and abuse,                        implementation of a compliance
process of implementing a compliance                      enhancing operational functions,                          program may not entirely eliminate
program, these guidelines may serve as                    improving the quality of health care                      fraud and abuse from the operations of
a benchmark against which to measure                      services, and decreasing the cost of                      a nursing facility. However, a sincere
their ongoing efforts.                                    health care. Attaining these goals                        effort by the nursing facility to comply
   Implementing an effective compliance                   provides positive results to the nursing                  with applicable statutes and regulations
program in a nursing facility may                         facility, the Government, and individual                  as well as Government and private
require a significant commitment of                       citizens alike. In addition to fulfilling its             payer health care program requirements,
time and resources by all parts of the                    legal duty to ensure that it is not                       through the establishment of a
organization. However, superficial                        submitting false or inaccurate claims to                  compliance program, significantly
efforts or programs that are hastily                      Government and private payors, a                          reduces the risk of unlawful or improper
constructed and implemented without a                     nursing facility may gain numerous                        conduct.
long term commitment to a culture of                      other benefits by voluntarily
                                                                                                                    B. Application of Compliance Program
compliance likely will be ineffective                     implementing a compliance program.
                                                                                                                    Guidance
and may expose the nursing facility to                    The benefits may include:
greater liability than if it had no                          • the formulation of effective internal                   Given the diversity within the long
program at all.4 Although an effective                    controls to ensure compliance with                        term care industry, there is no single
compliance program may require a                          statutes, regulations and rules;                          ‘‘best’’ nursing facility compliance
                                                             • a concrete demonstration to                          program. The OIG recognizes the
reallocation of existing resources, the
                                                          employees and the community at large                      complexities of this industry and is
long term benefits of establishing a
                                                          of the nursing facility’s commitment to                   sensitive to the differences among large
compliance program significantly
                                                          responsible corporate conduct;                            national chains, regional multi-facility
outweigh the initial costs. In short,                        • the ability to obtain an accurate
compliance measures are an investment                                                                               operators, and small independent
                                                          assessment of employee and contractor                     homes. However, the elements of this
that advance the goals of the nursing                     behavior;
facility, the solvency of the Federal                                                                               guidance can be used by all nursing
                                                             • an increased likelihood of                           facilities to establish a compliance
health care programs, and the quality of                  identifying and preventing unlawful
care provided to the nursing home                                                                                   program, regardless of size (in terms of
                                                          and unethical behavior;                                   employees and gross revenues), number
resident.                                                    • the ability to quickly react to
   In a continuing effort to collaborate                                                                            of locations, or corporate structure.
                                                          employees’ operational compliance
closely with health care providers and                    concerns and effectively target resources                   7 Counsel to the nursing facility should be
the private sector, the OIG placed a                      to address those concerns;                                consulted as appropriate regarding interpretation
notice in the Federal Register soliciting                    • an improvement in the quality,                       and legal analysis of laws related to the Federal
comments and recommendations on                           efficiency, and consistency of providing                  health care programs and laws related to fraud,
what should be included in this                                                                                     abuse and other legal requirements.
                                                          services;                                                   8 For example, the OIG will consider the
compliance program guidance. 5 In
                                                                                                                    existence of an effective compliance program that
                                                          for Developing OIG Compliance Program Guidance            pre-dated any governmental investigation when
or child health services). See 42 U.S.C. 1320a–7b(f).     for the Nursing Home Industry.                            addressing the appropriateness of administrative
In this document, the term ‘‘Federal health care            6 The OIG periodically issues advisory opinions         sanctions. However, the burden is on the nursing
program requirements’’ refers to the statutes,            responding to specific inquires concerning the            facility to demonstrate the operational effectiveness
regulations and other written directives governing        application of the OIG’s authorities and Special          of the compliance program. Further, the False
Medicare, Medicaid, and all other Federal health          Fraud Alerts, setting forth activities that raise legal   Claims Act, 31 U.S.C. 3729–3733, provides that a
care programs.                                            and enforcement issues. These documents, as well          person who has violated the Act, but who
  4 Recent case law suggests that the failure of a
                                                          as reports from OAS and OEI can be obtained on            voluntarily discloses the violation to the
corporate director to attempt in good faith to            the Internet at: http://www.hhs.gov/oig. We also          Government within 30 days of detection, in certain
institute a compliance program in certain situations      recommend that nursing home providers regularly           circumstances will be subject to not less than
may be a breach of a director’s fiduciary obligation.     review the Health Care Financing Administration           double, as opposed to treble, damages. See 31
See, e.g., In re Caremark Int’l Inc. Derivative Litig.,   (HCFA) website on the Internet at: http://                U.S.C. 3729(a). In addition, criminal sanctions may
698 A.2d 959, 970 (Ct. Chanc. Del. 1996).                 www.hcfa.gov, for up-to-date regulations, manuals,        be mitigated by an effective compliance program
  5 See 63 FR 70137 (December 12, 1998), Notice for       and program memoranda related to the Medicare             that was in place at the time of the criminal offense.
Solicitation of Information and Recommendations           and Medicaid programs.                                    See note 11.
                             Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices                                                   14291

Similarly, a corporation that provides                 The OIG recognizes that full                            (5) The use of audits and/or other risk
long term care as part of an integrated                implementation of all elements may not                evaluation techniques to monitor
health care delivery system may                        be immediately feasible for all nursing               compliance, identify problem areas, and
incorporate these elements into its                    facilities. However, as a first step, a               assist in the reduction of identified
structure.9                                            good faith and meaningful commitment                  problems; 14
   We recognize that some nursing                      on the part of nursing facility                         (6) The development of policies and
facilities may not be able to adopt                    management will substantially                         procedures addressing the non-
certain elements to the same degree as                 contribute to the program’s successful                employment or retention of excluded
others with more extensive resources.                  implementation. As the compliance                     individuals or entities and the
At the end of several sections of this                 program is effectuated, that commitment               enforcement of appropriate disciplinary
document, the OIG has offered                          should cascade down through                           action against employees or contractors
suggestions to assist these smaller                    management to every employee and                      who have violated corporate or
nursing facility providers in                          contractor of the nursing facility.                   compliance policies and procedures,
implementing the principles expressed                     At a minimum, a comprehensive
                                                                                                             applicable statutes, regulations, or
in this guidance. Regardless of size,                  compliance program should include the
                                                                                                             Federal, State, or private payor health
structure or available resources, the OIG              following seven elements:
                                                          (1) The development and distribution               care program requirements; and
recommends that every nursing facility
should strive to accomplish the                        of written standards of conduct, as well                (7) The development of policies and
objectives and principles underlying all               as written policies, procedures and                   procedures with respect to the
of the compliance polices and                          protocols that promote the nursing                    investigation of identified systemic
procedures in this guidance.                           facility’s commitment to compliance                   problems, which include direction
   By no means should the contents of                  (e.g., including adherence to the                     regarding the prompt and proper
this guidance be viewed as an exclusive                compliance program as an element in                   response to detected offenses, such as
or complete discussion of the advisable                evaluating managers and employees)                    the initiation of appropriate corrective
elements of a compliance program. On                   and address specific areas of potential               action, repayments, and preventive
the contrary, the OIG strongly                         fraud and abuse, such as claims                       measures.
encourages nursing facilities to develop               development and submission processes,
                                                                                                             B. Written Policies and Procedures
and implement compliance elements                      quality of care issues, and financial
that uniquely address the areas of                     arrangements with physicians and                         Every compliance program should
potential problems, common concerns,                   outside contractors;                                  develop and distribute written
or high risk areas that apply to their                    (2) The designation of a compliance                compliance standards, procedures, and
own facilities. Furthermore, this                      officer and other appropriate bodies                  practices that guide the nursing facility
                                                       (e.g., a corporate compliance committee)              and the conduct of its employees
guidance may be modified and
                                                       charged with the responsibility for                   throughout day-to-day operations. These
expanded as more information and
                                                       developing, operating and monitoring                  policies and procedures should be
knowledge is obtained by the OIG, and
                                                       the compliance program, and who                       developed under the direction and
as changes occur in the statutes,
                                                       reports directly to the owner(s),                     supervision of the compliance officer,
regulations and rules of the Federal
                                                       governing body and/or CEO; 12                         the compliance committee, and
health care programs and private health                   (3) The development and
plans. New compliance practices also                                                                         operational managers. At a minimum,
                                                       implementation of regular, effective
may be incorporated into this guidance                                                                       they should be provided to all
                                                       education and training programs for all
if the OIG discovers enhancements that                                                                       employees who are affected by these
                                                       affected employees; 13
promote effective compliance.                             (4) The creation and maintenance of                policies, as well as physicians,
                                                       an effective line of communication                    suppliers, nursing facility agents, and
II. Compliance Program Elements                                                                              contractors, as applicable to those
                                                       between the compliance officer and all
A. The Seven Basic Compliance                          employees, including a process, such as               entities.15 In addition to general
Elements                                               a hotline or other reporting system, to               corporate policies and procedures, an
                                                       receive complaints, and the adoption of               effective compliance program should
  The OIG believes that every effective
                                                       procedures to protect the anonymity of                include specific policies and procedures
compliance program must begin with a
                                                       complainants and to protect whistle                   for the different clinical, financial, and
formal commitment 10 by the nursing
                                                       blowers from retaliation;                             administrative functions of a nursing
facility’s governing body to address all
                                                                                                             facility.
of the applicable elements listed below,
which are based on the seven steps of                  Note 3(k). The Federal Sentencing Guidelines are
                                                       detailed policies and practices for the Federal         14 For example, periodically spot-checking the
the Federal Sentencing Guidelines.11                   criminal justice system that prescribe the            work of coding and billing personnel should be part
                                                       appropriate sanctions for offenders convicted of      of a compliance program. In addition, procedures
   9 For example, this would include providers that
                                                       Federal crimes.                                       to regularly monitor the care provided to nursing
own hospitals, skilled nursing facilities, long term      12 The roles of the compliance officer and the     facility residents and to ensure that deficiencies
care facilities and hospices.                          corporate compliance committee in implementing        identified by surveyors are corrected should be
   10 A formal commitment may include a resolution     an effective compliance program are discussed         incorporated into the compliance program’s
by the board of directors, owner(s), or president,     throughout this guidance. However, the OIG            evaluation and monitoring functions.
where applicable. Evidence of that commitment          recognizes that differences in the sizes and            15 According to the Federal Sentencing
should include the allocation of adequate resources,   structures of nursing facilities may result in        Guidelines, an organization must have established
a timetable, and the identification of an individual   differences in the ways in which compliance           compliance standards and procedures to be
to serve as a compliance officer or coordinator to     programs function.                                    followed by its employees and other agents in order
ensure that each of the recommended and adopted           13 Training and educational programs for nursing   to receive sentencing credit for an ‘‘effective’’
elements is addressed. Once a commitment has           facilities should be detailed, comprehensive and at   compliance program. The Federal Sentencing
been established, a compliance officer should          the same time targeted to address the needs of        Guidelines define ‘‘agent’’ as ‘‘any individual,
immediately be chosen to oversee the                   specific employees based on their responsibilities    including a director, an officer, an employee, or an
implementation and ongoing operation of the            within the facility. Existing in-service training     independent contractor, authorized to act on behalf
compliance program.                                    programs can be expanded to address general           of the organization.’’ See United States Sentencing
   11 See United States Sentencing Commission          compliance issues, as well as the risk areas          Commission Guidelines, Guidelines Manual, 8A1.2,
Guidelines, Guidelines Manual, 8A1.2, Application      identified in that part of nursing home operations.   Application Note 3(d).
14292                          Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices

1. Code of Conduct                                        facilities may not have the resources to               recommends that these internal
   While a clear statement of policies                    establish a comprehensive compliance                   compliance reviews be undertaken on a
and procedures is at the core of a                        program, we believe that every nursing                 regular basis to ensure compliance with
compliance program, the OIG                               facility can design a program that                     current program requirements.
recommends that nursing facilities start                  addresses the seven elements set out in                   To assist nursing facilities in
the process with the development of a                     this guidance, albeit at different levels              performing this internal assessment, the
corporate statement of principles that                    of sophistication and complexity. In its               OIG has developed a list of potential
will guide the operations of the                          most fundamental form, a facility’s code               risk areas affecting nursing facility
provider. One common expression of                        of conduct is a basic set of standards                 providers. These risk areas include
this statement of principles is the code                  that articulate the organization’s                     quality of care and residents’ rights,
of conduct.16 The code should function                    philosophy, summarize basic legal                      employee screening, vendor
in the same fashion as a constitution,                    principles, and teach employees how to                 relationships, billing and cost reporting,
i.e., as a foundational document that                     respond to practices that may violate the              and record keeping and documentation.
details the fundamental principles,                       code of conduct. These standards                       This list of risk areas is not exhaustive,
values, and framework for action within                   should be posted and distributed to                    nor all encompassing. Rather, it should
an organization. The code of conduct for                  every employee. Further, even a small                  be viewed as a starting point for an
a nursing facility should articulate the                  nursing facility should obtain written                 internal review of potential
organization’s expectations of                            attestation from its employees to                      vulnerabilities within the nursing
employees, as well as summarize the                       confirm their understanding and                        facility.21 The objective of this
basic legal principles under which the                    commitment to the nursing facility’s                   assessment should be to ensure that the
organization must operate. Unlike the                     code of conduct.                                       employees, managers and directors are
more detailed policies and procedures,                                                                           aware of these risk areas and that steps
                                                          2. Specific Risk Areas                                 are taken to minimize, to the extent
the code of conduct should be brief,
                                                             As part of their commitment to a                    possible, the types of problems
easily readable and cover general
                                                          compliance program, nursing facilities                 identified. While there are many ways
principles applicable to all employees.
   The code of conduct should be                          should prepare a comprehensive set of                  to accomplish this objective,
distributed to, and comprehensible by,                    written policies and procedures that are               comprehensive written policies and
all affected employees.17 Depending on                    in place to prevent fraud and abuse in                 procedures that are communicated to all
the facility’s work force, this may mean                  facility operations and to ensure the                  appropriate employees and contractors
that the code should be translated into                   appropriate care of their residents.                   are the first step in an effective
other languages when necessary and                        These policies and procedures should                   compliance program.
written at appropriate reading levels.                    educate and alert all affected managers                   The OIG believes that sound operating
Further, any employee handbook                            and employees of the Federal health                    compliance policies are essential to all
delineating the standards of conduct                      care program and private payor                         nursing facilities, regardless of size and
should be regularly updated to reflect                    requirements, the consequences of                      capability. If a lack of resources to
developments in applicable Government                     noncompliance, and the specific                        develop such policies is genuinely an
and private health care program                           procedures that nursing facility                       issue, the OIG recommends that those
requirements. Finally, the OIG                            employees should follow to report                      nursing facilities focus first on those
recommends that current employees, as                     problems, to ensure compliance, and to                 risk areas most likely to arise in their
                                                          rectify any prior noncompliance.                       business operations. At a minimum,
well as those newly hired, should
                                                             The OIG recognizes that many States                 resources should be directed to analyze
certify that they have received, read,
                                                          require nursing facilities to have a                   the results of annual surveys,22 and to
and will abide by the organization’s
                                                          policies and procedures manual and                     verify that the facility has effectively
code of conduct. These certifications,
                                                          that most facilities have in place                     addressed any deficiencies cited by the
updated any time the code is revised or
                                                          procedures to prevent fraud and abuse                  surveyors. An effective and low-cost
amended by the organization, should be
                                                          in their institutions. These providers                 means to accomplish this is through the
retained in the employee’s personnel
                                                          may not need to develop a new,                         use of the facility’s Quality Assessment
file and made available for review.18
                                                          comprehensive set of policies as part of               and Assurance Committee. The
   The OIG believes that all nursing
                                                          their compliance program if existing                   committee should consist of facility staff
facilities should operate under the
                                                          policies effectively encompass the                     members, including the Director of
guidance of a code of conduct. While
                                                          provider’s operations and relevant rules.
the OIG recognizes that some nursing
                                                          However, the nursing home industry is                  Advisory Bulletins that identify activities believed
                                                          subject to numerous Federal and State                  to raise enforcement concerns. These documents
  16 The   OIG strongly encourages the participation                                                             and other materials that provide insight into the
and involvement of the nursing facility’s owner(s),       statutes, rules, regulations and manual                nursing home enforcement priorities of the OIG are
governing board, CEO, as well as other personnel          instructions.19 Because these program                  referenced throughout this guidance.
from various levels of the organizational structure       requirements are frequently modified,                     21 The OIG recommends that, in addition to the
in the development of all aspects of the compliance                                                              list set forth below, the provider review the OIG’s
program, especially the standards of conduct.
                                                          the OIG recommends that all nursing
                                                                                                                 Work Plan to identify vulnerabilities and risk areas
Management and employee involvement in this               facilities evaluate their current                      on which the OIG will focus during the following
process communicates a strong and explicit                compliance policies and procedures by                  year. In addition, it is recommended that the
commitment to all employees of the need to comply         conducting a baseline assessment of risk               nursing facility routinely review the OIG’s
with the organization’s standards of conduct.                                                                    semiannual reports, which identify program
   17 The code also should be distributed, or at least
                                                          areas, as well as subsequent
                                                                                                                 vulnerabilities and risk areas that the OIG has
available, to the residents and their families, as well   reevaluations.20 The OIG also                          targeted during the preceding six months. All of
as the physicians and contractors associated with                                                                these documents are available on the OIG’s
the facility.                                               19 See http://www.hcfa.gov for information on        webpage at http://www.hhs.gov/oig.
   18 Documentation of employee training and other        obtaining a set of all Medicare and Medicaid              22 State and local agegncies enter into agreements

compliance efforts is important in conducting             manuals.                                               with DHHS under which they survey and make
internal assessments of the compliance program, as          20 In addition, all providers should be aware of     recommendations regarding whether providers
well as during any third-party evaluation of the          the enforcement priorities of Federal and State        meet the Medicare participation requirements or
facility’s efforts to comply with Federal health care     regulators and law enforcement agencies. OIG           other requirements for SNFs and NFs. See 42 CFR
program requirements. See section II.F.                   periodically issues Special Fraud Alerts and Special   488.10, 488.12.
                               Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices                                                           14293

Nursing and the medical director.                         regulations, a facility should develop its                   • absence of a comprehensive,
Inclusion and participation of direct                     own quality of care protocols and                         accurate assessment of each resident’s
care staff (e.g., nurses and nurses’ aides                implement mechanisms for evaluating                       functional capacity and a
who provide direct resident care)                         compliance with those protocols. As                       comprehensive care plan that includes
should be encouraged. This committee                      part of its ongoing commitment to                         measurable objectives and timetables to
is best suited to establish measurable,                   quality care, the facility should                         meet the resident’s medical, nursing,
outcome-based criteria that focus on                      implement a system that reviews each                      and mental and psychosocial needs; 26
vulnerabilities that adversely affect the                 resident’s outcomes and improves on                          • inappropriate or insufficient
care of residents. On a periodic basis,                   those outcomes through analysis and                       treatment and services to address
the committee should meet to identify                     modification of the delivery of care.                     residents’ clinical conditions, including
issues affecting the quality of care                      After the care delivery protocols have                    pressure ulcers, dehydration,
provided to the residents and to develop                  been modified, the facility should re-                    malnutrition, incontinence of the
and implement appropriate corrective                      analyze the residents’ outcomes to                        bladder, and mental or psychosocial
actions. The time commitment required                     assure that the modification had the                      problems; 27
for this collaborative effort will vary                   desired result and has actually                              • failure to accommodate individual
according to the magnitude of the                         improved care. Although resident care                     resident needs and preferences; 28
facility’s quality assessment and                         protocols are a useful tool for                              • failure to properly prescribe,
assurance issues.                                         maintaining or improving the quality of                   administer and monitor prescription
   Creating a resource manual from                        care, facilities should ensure that                       drug usage; 29
publicly available information may be a                   measurable resident outcomes are used                        • inadequate staffing levels or
cost-effective approach for developing                    to determine the adequacy of the care                     insufficiently trained or supervised staff
policies and procedures to improve the                    actually rendered.                                        to provide medical, nursing, and related
quality of each resident’s life. For                         As noted above, current and past                       services; 30
example, a simple binder that contains                    surveys are a good place to begin to
a facility’s written policies and                         identify specific risk areas and                             26 As stated above, each resident must receive the

procedures, the most recent survey                        regulatory vulnerabilities at the                         necessary care and services to attain or maintain the
                                                                                                                    highest practicable physical, mental, and
findings and plan of correction, relevant                 individual facility. Any deficiencies                     psychosocial well-being, in accordance with the
HCFA instructions and bulletins, and                      discovered by an annual State agency                      resident’s assessment and plan of care. See 42 CFR
summaries of key OIG documents (e.g.,                     survey, Federal validation survey or                      483.25. The OIG recognizes that this standard does
Special Fraud Alerts, Advisory                            complaint survey reflect noncompliance                    not always lend itself to easy, objective evaluation.
                                                                                                                    The matter is further complicated by the right of the
Bulletins, inspection and audit reports)                  with the program requirements for                         resident, or his or her legal representative, to decide
can be regularly updated and made                         nursing homes and can be the basis for                    on a course of treatment that may be
accessible to all employees. Particularly                 enforcement actions.25 Those                              contraindicated. The Patient Self-Determination Act
in the case of more technical materials,                  deficiencies identified by the State                      (Omnibus Budget Reconciliation Act of 1990, Pub.
                                                                                                                    L. 101–508, sec. 4206 and 4751) requires health care
it may be advisable to provide                            agency survey instrument must be                          institutions to educate patients about advance
summaries in the handbook and make                        addressed and, where appropriate, the                     directives and to document their decision on life-
the source documents available upon                       corrective action should be incorporated                  sustaining treatments.
request. If individualized copies of this                 into the facility’s policies and                             27 HCFA has created a repository of best practice

handbook are not made available to all                    procedures as well as reflected in its                    guidelines for the care of residents at risk of
                                                                                                                    pressure ulcers, dehydration, malnutrition, and
employees, then a reference copy                          training and educational programs. In                     other clinical conditions. See http://www.hcfa.gov/
should be available in a readily                          addition to responding promptly to                        medicaid/siq/siqhmpg.htm.
accessible location, as well as from the                  deficiencies identified through the                          28 42 CFR 483.15(e)(1).

designated compliance officer.                            survey and certification process, nursing                    29 The OIG has conducted a series of reviews that

                                                          facilities should take proactive measures                 focused on prescription drug use in nursing homes.
a. Quality of Care                                                                                                  See OIG reports OEI–06–96–00080, OEI–06–96–
                                                          to identify, anticipate, and respond to                   00081, OEI–06–96–00082—‘‘Prescription Drug Use
   The OIG believes that a nursing                        quality of care risk areas identified by                  in Nursing Homes—Reports 1, 2 and 3.’’ The OIG
facility’s compliance policies should                     the nursing home ombudsman or other                       found that patients experienced adverse reactions to
start with a statement that affirms the                   sources.                                                  various drugs as a result of inappropriate
facility’s commitment to providing the                       As noted throughout this guidance,                     prescribing and inadequate monitoring of
                                                                                                                    medication usage. The reviews revealed serious
care and services necessary to attain or                  each provider must assess its                             concerns, including residents receiving drugs for
maintain the resident’s ‘‘highest                         vulnerability to particular abusive                       which their medical records lacked evidence of a
practicable physical, mental and                          practices in light of its unique                          prescription and the prescription of drugs judged
psychosocial well-being.’’ 23 To achieve                  circumstances. However, the OIG,                          inappropriate for use by elderly persons. The
the goal of providing quality care,                                                                                 studies also found that medication records were
                                                          HCFA, the Department of Justice, and                      often incomplete and not readily accessible, making
nursing facilities should continually                     State enforcement agencies have                           it difficult for a pharmacist to identify or confirm
measure their performance against                         substantial experience in identifying                     drug regimens or problems.
comprehensive standards that, at a                        quality of care risk areas. Some of the                      30 For example, Federal regulations require that

minimum, must include Medicare                                                                                      the medical care of each resident be supervised by
                                                          special areas of concern include:                         a physician, who must see the resident at least once
requirements.24 In addition to these                                                                                every 30 days for the first 90 days after admission
                                                          Medicare and Medicaid programs. State licensure           and at least once every 60 days thereafter. See 42
  23 42 CFR 483.25. See OIG report OEI–02–98–             laws may impose additional requirements for the           CFR 483.40(c). The facility also must retain the
00060 ‘‘Quality of Care in Nursing Homes: An              establishment and certification of a nursing facility.    services of a registered nurse for at least 8
Overview,’’ in which the OIG found that, although            25 See 42 CFR part 488, subparts A, B, C, E, and       consecutive hours a day, 7 days a week (42 CFR
the overall number of deficiencies identified             F. The survey instrument is used to identify              483.30), as well as a qualified dietitian (42 CFR
through the survey and certification process was          deficiencies, such as: failure to notify residents of     483.35). In addition to these basic Federal
decreasing, the number of ‘‘quality of care’’ and         their rights; improper use of restraints for discipline   requirements, the OIG strongly believes that the
other serious deficiencies was increasing.                purposes; lack of a clean and safe environment;           facility should conform to State-mandated staffing
  24 See 42 CFR part 483, which establishes               failure to provide care for basic living activities,      levels where they exist and, in addition, adopt its
requirements for long term care facilities. HCFA’s        including failing to prevent and/or treat pressure        own minimum ‘‘hours per patient’’ (or acuity)
regulations establish requirements that must be met       ulcers, urinary incontinence and hydration; and           staffing standards. A facility should ensure that it
for a nursing facility to qualify to participate in the   failing to properly feed residents.                                                                    Continued
14294                          Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices

  • failure to provide appropriate                        b. Residents’ Rights                                       • denial of a resident’s right to
therapy services; 31                                         The Budget Reconciliation Act                        participate in care and treatment
  • failure to provide appropriate                        (OBRA) of 1987, Public Law 100–203,                     decisions; 39 and
services to assist residents with                         established a number of requirements to                    • failure to safeguard residents’
activities of daily living (e.g., feeding,                protect and promote the rights of each                  financial affairs.40
dressing, bathing, etc.);                                 resident.33 In addition, many States                    c. Billing and Cost Reporting
  • failure to provide an ongoing                         have adopted specific lists of residents’
                                                          rights.34 The nursing facility’s policies                  Abusive and fraudulent billing
activities program to meet the                                                                                    practices in the Federal health care
                                                          should address the residents’ right to a
individual needs of all residents; and                                                                            programs drain the public fisc of the
                                                          dignified existence that promotes
  • failure to report incidents of                        freedom of choice, self-determination,                  funds needed to provide program
mistreatment, neglect, or abuse to the                    and reasonable accommodation of                         beneficiaries medically necessary items
administrator of the facility and other                   individual needs. To protect the rights                 and services. These types of abusive
officials as required by law.32                           of each resident, the OIG recommends                    practices also have had an adverse
                                                          that a provider address the following                   financial impact on private health
  As noted previously, a nursing facility                                                                         insurance plans and their subscribers.
that has a history of serious deficiencies                risk areas as part of its compliance
                                                          policies:                                               Over the last twenty years, the OIG has
should use those survey results as a                                                                              identified patterns of improper and
starting point for implementing a                            • discriminatory admission or
                                                          improper denial of access to care; 35                   fraudulent activities that cover the
comprehensive plan to improve its                                                                                 spectrum of health care services and
quality of care. The quality of life for                     • verbal, mental or physical abuse,
                                                          corporal punishment and involuntary                     have cost taxpayers billions of dollars.41
nursing home residents can be                                                                                     These fraudulent billing practices, as
                                                          seclusion; 36
improved most directly by effectively
                                                             • inappropriate use of physical or                   well as abuses in other risk areas that
addressing these risk areas with written                  chemical restraints; 37                                 are described in this compliance
policies and procedures, which are then                      • failure to ensure that residents have              program guidance, have resulted in
implemented through effective training                    personal privacy and access to their                    criminal, civil and administrative
programs and supervision.                                 personal records upon request and that                  enforcement actions. Because the
                                                          the privacy and confidentiality of those                consequences of these enforcement
has a sufficient number of staff, including registered    records are protected; 38                               actions can have a profound adverse
nurses (RNs), Licensed Practical Nurses (LPNs,)                                                                   impact on a provider, the identification
Certified Nurses Assistants (CNAs) and Nursing
Assistants (collectively ‘‘Nursing Staff’’) and other
                                                             33 See generally, 42 U.S.C. 1395i–3 and 42 CFR       of risk areas associated with billing and
health care professionals to fully meet the needs of      part 483.                                               cost reporting should be a major
                                                             34 In OIG report OEI–02–98–00350 ‘‘Long Term
all of its residents. Sufficient staff should be                                                                  component of a nursing facility’s
provided to ensure that residents receive nursing         Ombudsman Program: Complaint Trends,’’ the OIG
                                                          points out that complaints about resident care and      compliance program.
and other health care services on a 24-hour basis
that allows each resident to attain or maintain the       resident rights have been increasing. Resident care
highest practicable physical, mental and                  concerns included complaints about personal care,       483.10(e). The facility also must establish policies
psychosocial well-being as determined by                  such as pressure ulcers and hygiene, lack of            that respect each resident’s right to privacy in
individual resident assessments and plans of care.        rehabilitation, the inappropriate use of restraints,    personal communications, including the right to
A facility should establish staffing standards on a       abuse and neglect, problems with admissions and         receive mail that is unopened and to the use of a
facility-specific (or, often more appropriately, a        eviction, and the exercise of personal rights. Some     telephone where calls can be made in privacy. See
unit-specific) basis that reflect the acuity level and    ombudsmen observed that the increasing number of        42 CFR 483.10(i) and (k).
needs of the residents. The use of an acuity level/       complaints could be due to a greater presence of           39 The right of self-determination includes the

staffing ratio model gives the facility the ability to    ombudsmen staff in nursing homes. However, a            resident’s right to choose a personal physician, to
adjust staffing levels as resident needs fluctuate, as    comparison of each State’s staffing ratio and           be fully informed of his or her health status, and
well as a basis for conducting compliance audits.         visitation rate to their complaint ratio found that     participate in advance in treatment decisions,
On an ongoing basis, the compliance officer should        States with more staff and more frequent visits did     including the right to refuse treatment, unless
monitor the facility’s compliance with the staffing       not necessarily have more complaints.                   adjudged incompetent or incapacitated. See 42 CFR
                                                             35 Nursing facilities must offer care to all
ratios established by the quality assurance                                                                       483.10(d).
committee, to ensure that the facility maintains          residents who are eligible in accordance with              40 This includes preserving the resident’s right to
staffing levels sufficient to serve resident needs. At    Federal and State laws governing admissions. See        manage his or her financial affairs or permit the
the heart of many quality of care deficiencies is a       42 CFR 483.12(d). The provider also must maintain       facility to hold and manage personal funds. The
lack of adequate staff needed to provide basic            identical policies regarding ‘‘transfer, discharge,     resident must receive a full and complete
nursing services.                                         and provision of services under the State plan’’ for    accounting of personal funds held by the facility.
   31 See OIG report OEI–09–97–00120 ‘‘Medical            all residents, regardless of payment source. See 42     See 42 CFR 483.10(c). If misappropriation of a
Necessity of Physical and Occupational Therapy in         CFR 483.12(c). See also OIG report OEI–02–99–           resident’s property is uncovered, the facility
Skilled Nursing Facilities,’’ which found a high rate     00401 ‘‘Early Effects of the Prospective Payment        administrator and other officials, in accordance
of medically unnecessary therapies in a number of         System on Access to Skilled Nursing Facilities.’’ It    with State law, must be notified immediately and
nursing facilities; such unnecessary services may         also is inappropriate to condition admission on a       an investigation conducted. Finally, the provider
lead to inappropriate care. See also OAS Report A–        prospective resident’s agreement to hold the facility   must take measures to ensure that personal funds
06–99–00058 ‘‘Infusion Therapy Services Provided          harmless for injuries or poor care provided to the      have not been used to pay for items or services paid
in Skilled Nursing Facilities,’’ which found similar      individual.                                             for by Medicare or Medicaid. Id.
                                                             36 See California Nursing Homes: Care Problems
problems with unnecessary infusion therapy                                                                           41 See OIG report A–17–99–00099 ‘‘Improper
services. With the introduction of the prospective        Persist Despite Federal and State Oversight, GAO/       Fiscal Year 1998 Fee-for-Service Payments,’’ in
payment system, nursing facilities should ensure          HEHS–98–202 (July 1998). As noted previously, the       which the OIG estimated that improper Medicare
that financial pressures do not create incentives to      facility must establish a process by which the          benefit payments made during fiscal year 1998
underutilize medically necessary therapeutic              facility administrator and other officials in           totaled $12.6 billion in processed fee-for-service
services.                                                 accordance with State law (including the State          payments. SNF payment errors were a result of
   32 In addition to providing the facility’s             survey and certification agency) are informed of        claims for services lacking medical necessity and
management important information about the state          incidents of abuse and an investigation is              represented 7 percent of the total estimated
of care in the facility, the self-reporting of resident   conducted within 5 days of the incident. See 42         improper payments. The OIG could not and did not
abuse, including injuries of unknown sources, is a        CFR 483.13(c)(4).                                       quantify what percentage of the improper payments
                                                             37 See OIG report OEI–01–91–00840 ‘‘Minimizing
condition of participation. See 42 CFR 483.13(c)(2).                                                              was the result of fraud. Significantly, it was only
Although State surveyors conduct complaint                Restraints in Nursing Homes: A Guide to Action.’’       through a review of medical records that the
surveys when they receive a complaint, these                 38 It is a violation of the Medicare participation   majority of these billing errors were detected, since
surveys can only occur if the surveyors are aware         requirements to make unauthorized disclosures           when the claims were submitted to the Medicare
of the problem.                                           from the resident’s medical records. See 42 CFR         contractor, they contained no visible errors.
                               Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices                                                         14295

   The introduction of a prospective                        • submitting claims to Medicare Part                    • submitting claims for items or
payments system (PPS) for Medicare                        A for residents who are not eligible for                services not ordered; 48
SNFs, consolidated billing of all                         Part A coverage; 45                                       • knowingly billing for inadequate or
services furnished to a resident in a                       • duplicate billing; 46                               substandard care; 49
covered Part A stay and the forthcoming                     • failing to identify and refund credit                 • providing misleading information
implementation of consolidated billing                    balances; 47                                            about a resident’s medical condition on
for SNF residents in a Part B stay create                                                                         the MDS or otherwise providing
additional issues to be addressed when                    reimbursement for a service that is not warranted       inaccurate information used to
designing billing and cost reporting                      by a resident’s documented medical condition. See       determine the RUG assigned to the
                                                          42 U.S.C. 1395y(a)(1)(A) (‘‘no payment may be
compliance policies and procedures.42                     made under part A or part B [of Medicare] for any       resident;
In the following discussion of billing                    expenses incurred for items or services which             • upcoding the level of service
risk areas, the OIG has attempted to                      * * * are not reasonable and necessary for the          provided; 50
identify issues that pose concerns under                  diagnosis or treatment of illness or injury or to         • billing for individual items or
                                                          improve the functioning of the malformed body
the current systems of reimbursement                      member’’). At the same time, nursing facilities are
                                                                                                                  services when they either are included
and the transition period to                              required to provide the services necessary to attain    in the facility’s per diem rate or are of
consolidated billing, as well as                          or maintain the highest practicable physical, mental    the type of item or service that must be
anticipate potential compliance issues                    and psychosocial well-being of each resident. See       billed as a unit and may not be
                                                          42 U.S.C. 1395i–3(b)(2) and 1396r(b)(2). In order to
stemming from these program changes.                      meet these obligations, nursing homes should
                                                                                                                  unbundled; 51
As is the case with all aspects of                        formulate policies and procedures that include            • billing residents for items or
compliance, the nursing facility must                     periodic clinical reviews, both prior and subsequent    services that are included in the per
continually reassess its billing                          to billing for services, as a means of verifying that   diem rate or otherwise covered by the
                                                          patients receive appropriate services.
procedures and policies to ensure that                                                                            third-party payor;
                                                             In the Special Fraud Alert ‘‘Fraud and Abuse in
unanticipated problems are promptly                       the Provision of Services in Nursing Facilities’’         • altering documentation or forging a
identified and corrected. Listed below                    (June 1996), the OIG identified several types of        physician signature on documents used
are some of the reimbursement risk                        fraudulent arrangements through which health care       to verify that services were ordered and/
areas a nursing facility should consider                  providers inappropriately billed Medicare and           or provided; 52
                                                          Medicaid for unnecessary or non-rendered items
addressing as part of its written                         and services. Under PPS, the provision of
compliance policies and procedures:                       unnecessary services may take a different form. As      or claims processing error. Nursing facilities should
   • billing for items or services not                    discussed below, manipulation of the Minimum            institute procedures to provide for the timely
                                                                                                                  identification, accurate reporting and repayment of
rendered or provided as claimed;43                        Data Set (MDS) to fit a resident into a higher RUG
                                                                                                                  credit balances. In addition, the provider should
   • submitting claims for equipment,                     can result in the provision of medically
                                                                                                                  promptly repay if a resident is also entitled to a
                                                          unnecessary services. In addition, a nursing facility
medical supplies and services that are                    may not enter into arrangements with providers of       credit. See OIG reports OEI–07–09–00910
medically unnecessary; 44                                 ancillary services through which the facility           ‘‘Medicare Credit Balances in Skilled Nursing
                                                          overutilizes services reimbursed under Part B in        Facility Patient Accounts’’ and OEI–07–09–00911
   42 The Balanced Budget Act of 1997 (BBA) (Pub.         return for an offset in the cost of items or services   ‘‘Medicaid Credit Balances in Skilled Nursing
L. 105–33), established PPS for SNFs. Under PPS,          covered under Part A.                                   Facility Patient Accounts,’’ in which the OIG found
all costs (routine, ancillary, and capital) related to       45 In order for a SNF stay to be covered by          that skilled nursing facilities were not accurately or
services furnished to beneficiaries covered under         Medicare, the beneficiary must have a preceding         completely adjusting and reporting credit balance
Part A, including certain Part B services, are paid       three-day inpatient hospital stay. Observational        amounts due to the Medicare and Medicaid
a predetermined per diem amount. This amount is           stays and emergency room care do not qualify            programs. Significantly, the intentional
based on the medical condition and needs of the           towards the 3-day hospital stay requirement. In         concealment of a known overpayment may expose
resident, as reflected in the Resource Utilization        addition, Medicare Part A benefits in skilled           a provider to criminal sanctions (see 42 U.S.C.
Group (RUG) code assigned to that resident. The           nursing facilities are limited to beneficiaries who     1320a–7b(a)(3)), and civil liability under the False
BBA also required consolidated billing for SNFs.          require skilled services rendered by technical or       Claims Act.
                                                                                                                     48 Billing for services or items not ordered
Under consolidated billing, all services provided by      professional personnel in a skilled nursing setting.
the SNF, including those furnished under                  See 42 CFR 409.31. Knowingly misrepresenting the        involves seeking reimbursement for services
arrangements with an outside supplier, for a              nature or level of services provided to a Medicare      provided but not ordered by the treating physician
resident of a SNF in a covered Part A stay are            beneficiary to circumvent the program’s limitation      or other authorized person.
included in the SNF’s Part A bill. If a resident is       is fraudulent.                                             49 See discussion on quality of care standards in
not in a covered Part A stay, under consolidated             46 Duplicate billing occurs when the nursing         nursing facilities in section II.B.2.a above and the
billing, the SNF still bills for all services furnished                                                           accompanying notes. Although the OIG is not
                                                          facility bills for the same item or service more than
to the resident (except for those services specifically                                                           suggesting that each and every survey citation or
                                                          once or when a vendor bills the Federal health care
excluded from consolidated billing). However, the                                                                 failure to meet the applicable standard of care is a
                                                          program for an item or service also billed by the
implementation of consolidated billing with respect                                                               per se violation of the False Claims Act (or a
                                                          facility. Although duplicate billing can occur due
to services furnished to residents in a Part B stay                                                               criminal, other civil, or administrative violation),
has been delayed indefinitely, and various ancillary      to simple error, the knowing submission of
                                                          duplicate claims—which is sometimes evidenced           knowingly billing for nonexistent or substandard
services continue to be reimbursed separately to                                                                  care, items, or services may give rise to criminal,
outside suppliers until further notice. See HCFA          by systematic or repeated double billing—can create
                                                          liability under criminal, civil, or administrative      civil, and/or administrative liability.
Program Memorandum (PM) Transmittal No. AB–                                                                          50 Upcoding involves the selection of a billing
98–35 (July 1998); PM Transmittal No. AB–98–45            law. A recent OIG survey of SNF PPS claims found
(August 1998); and PM Transmittal No. AB–99–90            a significant number of erroneous payments made         code that is not the most appropriate descriptor of
(Dec. 1999).                                              by the Medicare carrier for services for which          the service or condition, in order to maximize
   43 For example, the OIG has investigated               payments were already included in the SNF’s PPS         reimbursement. Under PPS, upcoding may take the
                                                          payment. As Medicare continues the                      form of ‘‘RUG creep.’’ RUG creep occurs when a
suppliers of ancillary services that improperly bill
                                                          implementation of consolidated billing, facilities      provider falsely or fraudulently completes the MDS,
for an hour of therapy when only a few minutes
were provided. Similarly, vendors that knowingly          should modify all agreements with vendors to            which results in assigning a resident to a higher
submit a claim for an expensive prosthetic device         require that the vendor bill the facility for those     RUG category.
when the resident only received non-covered adult         services covered under consolidated billing                51 A related risk area involves bill splitting

diapers have been the subject of enforcement              requirements and not submit bills directly to           schemes. This billing abuse usually takes the form
actions. When consolidated billing is implemented,        Medicare for such services. Communication               of manipulating the billing for procedures to create
vendors will not submit bills directly to Medicare        mechanisms also should be established to ensure         the appearance that the services were rendered over
for such services. As the entity submitting the           duplicative billings do not occur. For example, a       a period of days when, in fact, all treatment
claim, the nursing facility will need to have any         facility may wish to flag a referral to an outpatient   occurred during one visit.
certifications or orders necessary to provide the         provider as a ‘‘PPS resident’’ and inform the              52 The OIG has investigated a number of cases

service, as well as any required supporting               provider that the nursing home will be responsible      where signatures were forged, either to fabricate
documentation, to receive payment.                        for billing Medicare for the ancillary services.        evidence that a physician ordered equipment or
   44 Billing for medically unnecessary services,            47 A credit balance is an excess payment made to     services or to create a paper trail in support of items
supplies and equipment involves seeking                   a health care provider as a result of patient billing   or services that were never provided.
14296                         Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices

   • failing to maintain sufficient                     d. Employee Screening                                   has notice that an employee or
documentation to support the diagnosis,                    Nursing facilities are required by                   contractor is currently charged with a
justify treatment, document the course                  Federal, and in some cases State, law to                criminal offense related to the delivery
of treatment and results, and promote                   investigate the background of certain                   of health care services or is proposed for
continuity of care; and                                 employees.55 Nursing facilities should                  exclusion during his or her employment
   • false cost reports.53                              conduct a reasonable and prudent                        or contract, the facility should take all
                                                        background investigation and reference                  appropriate actions to ensure that the
   The OIG recommends that a nursing                                                                            responsibilities of that employee or
                                                        check before hiring those employees
facility, through its policies and                                                                              contractor do not adversely affect the
                                                        who have access to patients or their
procedures, take all reasonable steps to                                                                        quality of care rendered to any patient
                                                        possessions, or who have discretionary
ensure compliance with the Federal                                                                              or resident, or the accuracy of any
                                                        authority to make decisions that may
health care programs when submitting                    involve compliance with the law. The                    claims submitted to any Federal health
information that affects reimbursement                  employment application should                           care program.58 If resolution of the
decisions. A key component of ensuring                  specifically require the applicant to                   matter results in conviction, debarment,
accurate information is the proper and                  disclose any criminal conviction, as                    or exclusion, the nursing facility should
ongoing training and evaluation of the                  defined by 42 U.S.C. 1320a–7(i); or                     terminate its employment or contract
staff responsible for coding diagnoses                  exclusion from participation in the                     arrangement with the individual.
and regular internal audits of coding                   Federal health care programs. Because                      In order to ensure that nursing
policies and procedures. With the                       many of the services provided in                        facilities undertake background checks
arrival of consolidated billing and the                 nursing facilities are furnished under                  of all employees to the extent required
next edition of the coding manuals, it                  arrangement with non-employee                           by law, the OIG recommends that the
will be even more critical that                         personnel, including registry and                       following measures be incorporated into
knowledgeable individuals are                           personnel agency staff, the nursing                     the compliance program’s policies and
performing these coding tasks.                          facility also should require these                      procedures:
   The risk areas associated with billing               individuals to be subject to the same                      • investigate the background of
and cost reporting have been among the                  scrutiny by their agency prior to                       employees by checking with all
                                                        placement in the facility.                              applicable licensing and certification
most frequent subjects of investigations
                                                           This pre-employment screening is                     authorities to verify that requisite
and audits by the OIG. In addition to
                                                        critical to ensuring the integrity of the               licenses and certifications are in
facing criminal sanctions and significant
                                                        facility’s work force and safeguarding                  order; 59
monetary penalties, providers that have
                                                        the welfare of its residents. Because                      • require all potential employees to
failed to adequately ensure the accuracy
                                                        providers of nursing care have frequent,                certify (e.g., on the employment
of their claims and cost report
                                                        relatively unsupervised access to                       application) that they have not been
submissions can have their Medicare                                                                             convicted of an offense that would
                                                        vulnerable people and their property, a
payments suspended (42 CFR 405.371),                                                                            preclude employment in a nursing
                                                        nursing facility also should seriously
be excluded from program participation                                                                          facility and that they are not excluded
                                                        consider whether to employ individuals
(42 U.S.C. 1320a–7(b)), or, in lieu of                  who have been convicted of crimes of                    from participation in the Federal health
exclusion, be required by the OIG to                    neglect, violence, theft or dishonesty,                 care programs;
execute a corporate integrity agreement                 financial misconduct, or other offenses                    • require temporary employment
(CIA). 54                                               related to the particular job.56                        agencies to ensure that temporary staff
                                                           Nursing facility policies should                     assigned to the facility have undergone
   53 Nursing homes are required to submit various
                                                        prohibit the continued employment of                    background checks that verify that they
reports to Federal and State agencies in connection
with facility operations and to receive
                                                        individuals who have been convicted of                  have not been convicted of an offense
reimbursement for the care provided to program          a criminal offense related to health care
beneficiaries. Because program payments are in part     or who are debarred, excluded, or                       1320a–7a(a). See also OIG Special Advisory
based on self-reported operating costs, providers       otherwise become ineligible for                         Bulletin ‘‘The Effect of Exclusion From
must implement procedures to ensure that these          participation in Federal health care                    Participation in Federal Health Care Programs’’
reports are prepared as accurately as possible. This                                                            (September 1999).
should include measures to ensure that adequate         programs. 57 In addition, if the facility                  58 Likewise, the facility should establish
documentation exists to support information                                                                     standards prohibiting the execution of contracts
provided in the report, non-allowable costs are           5542  CFR 483.13(c)(1).                               with companies that recently have been convicted
appropriately identified and removed, and related         56 In OIG report A–12–97–0003 ‘‘Safeguarding          of a criminal offense related to health care or that
party transactions are treated consistent with          Long Term Care Residents,’’ it was noted that,          are listed by a Federal agency as debarred,
program requirements. See 42 CFR part 413. If the       although no Federal requirement exists for criminal     excluded, or otherwise ineligible for participation
provider intends to claim costs in non-conformity       background checks on nursing home staff, 33 States      in Federal health care programs. Prospective
with program rules, those items should be flagged       currently require that such checks occur. However,      employees or contractors that have been officially
in a letter accompanying the cost report.               there appears to be great diversity in the way States   reinstated into the Medicare and Medicaid
   Prior enforcement actions involving nursing          identify, investigate, and report suspected abuse of    programs by the OIG may be considered for
home cost reports have focused on nursing facilities    nursing home residents.                                 employment upon proof of such reinstatement.
that claimed salary expenses for employees who did         57 The effect of an OIG exclusion from Federal          59 Among the sources of information on
not exist, inflated the number of residents served,     health care programs is that no Federal health care     prospective employees are the State registry of
included non-reimbursable costs with nursing            program payment may be made for any items or            nurses’ aides, which provides a list of nurse aides
home-related expenses, inappropriately shifted          services: (1) furnished by an excluded individual or    that have successfully completed training and
costs to cost centers that were below the               entity; or (2) directed or prescribed by an excluded    competency evaluations and the National
reimbursement cap, and shifted non-Medicare             physician. See 42 CFR 1001.1901. An excluded            Practitioner Data Bank (NPDB). The NPDB is a
related costs to Medicare cost centers.                 individual or entity that submits a claim for           database that contains information about physicians
   54 The CIA imposes reporting requirements,           reimbursement to a Federal health care program, or      subject to medical malpractice payments, sanctions
independent audits, and other procedures on             causes such a claim to be submitted, may be subject     by boards of medical examiners or State licensing
providers who have demonstrated an inability or         to a civil money penalty of $10,000 for each item       boards, adverse clinical privilege actions, and
unwillingness to independently adopt these              or service furnished during the period that the         adverse professional society membership actions.
measures. It is clearly in a provider’s best interest   person or entity was excluded. See 42 U.S.C.            Health care entities can have access to this database
to avoid the implementation of a CIA by instituting     1320a–7a(a)(1)(D). The individual or entity also        to seek information about their own medical or
its own prevention, detection, and disclosure           may be subject to treble damages for the amount         clinical staff, as well as prospective employees or
mechanisms.                                             claimed for each item or service. See 42 U.S.C.         physician contractors.
                               Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices                                                         14297

that would preclude employment in the                     smaller nursing facilities. Nevertheless,      • agreements between the facility and
facility;                                                 the OIG recommends that all nursing        a hospital, home health agency, or
   • check the OIG’s List of Excluded                     facilities implement a policy to           hospice that involve the referral or
Individuals/Entities and the GSA’s list                   undertake background checks of all         transfer of any resident to or by the
of debarred contractors to verify that                    employees.                                 nursing home; 67
employees are not excluded from                                                                          • soliciting, accepting or offering any
                                                          e. Kickbacks, Inducements and Self-        gift or gratuity of more than nominal
participating in the Federal health care
                                                          Referrals                                  value to or from residents, potential
programs; 60
   • require current employees to report                     A nursing facility should have          referral sources, and other individuals
to the nursing facility if, subsequent to                 policies and procedures to ensure          and entities with which the nursing
their employment, they are convicted of                   compliance with the anti-kickback          facility has a business relationship; 68
an offense that would preclude                            statute,62 the Stark physician self-           • conditioning admission or
employment in a nursing facility or are                   referral law 63 and other relevant Federal continued stay at a facility on a third-
excluded from participation in any                        and State laws by providing guidance in party guarantee of payment, or soliciting
Federal health care program; and                          situations that could lead to a violation  payment for services covered by
   • periodically check the OIG and                       of these laws.64 In particular,            Medicaid, in addition to any amount
GSA web sites to verify the                               arrangements with hospitals, hospices,     required to be paid under the State
participation/exclusion status of                         physicians and vendors are vulnerable      Medicaid plan; 69
independent contractors and retain on                     to abuse. For example, in the case of          • arrangements between a nursing
file the results of that query. 61                        hospitals, physicians and hospital staff   facility and a hospital under which the
   Regardless of the size or resources of                 exert influence over the patient and can facility will only accept a Medicare
the nursing facility, employee screening                  influence the choice of a nursing          beneficiary on the condition that the
is critical. Nursing facilities, like all                 facility. In addition, in his or her roles hospital pays the facility an amount
corporations, must act through their                      as medical director and/or attending       over and above what the facility would
employees and are held accountable for                    physician, a physician frequently can      receive through PPS; 70
their actions. One of the best ways to                    influence the utilization of ancillary
                                                                                                     1991), the OIG describes several reasons why
ensure that the organization will act in                  services.65 Moreover, by contrast, a       routine waivers of these cost-sharing amounts pose
conformance with the law is to hire                       nursing facility operator can influence    abuse concerns. The Alert sets forth the
employees and contractors who can be                      the selection of which hospices will       circumstances under which it may be appropriate
trusted to embrace a culture of                           provide hospice services and which         to waive these amounts.
                                                                                                        67 In the Special Fraud Alert ‘‘Fraud and Abuse
compliance. While the resources                           vendors will deliver equipment and         in Nursing Home Arrangements with Hospices’’
required to check the OIG List of                         services to the facility’s residents. In   (March 1998), the OIG sets out the vulnerabilities
Excluded Individuals/Entities are                         addition to developing policies to         in nursing home arrangements with hospices. The
minimal, the absence of an accessible                     address arrangements with other health     Alert provides several examples of questionable
                                                                                                     arrangements between hospices and nursing homes
centralized site for criminal background                  care providers and suppliers, nursing      that could inappropriately influence the referral of
checks may result in inefficiencies and                   facilities also should implement           patients. Examples include the offering of free
expense. While large providers may                        measures to avoid offering inappropriate goods or goods at below fair market value to induce
elect to outsource the screening process,                 inducements to residents. Possible risk    a nursing home to refer patients to the hospice.
                                                                                                     Other examples demonstrating vulnerability to
this may not be a realistic option for                    areas that should be addressed in the      fraud and abuse include: (1) a hospice paying for
                                                          policies and procedures include:           room and board in excess of the amounts the
  60 The OIG ‘‘List of Excluded Individuals/
                                                             • routinely waiving coinsurance or      nursing home would normally charge or receive
Entities’’ provides information to health care            deductible amounts without a good faith from Medicaid; (2) a hospice paying for additional
providers, patients, and others regarding                                                            services that should be already included in the
individuals and entities that are excluded from           determination that the resident is in      room and board payment; and (3) a hospice
participation in Medicare, Medicaid, and other            financial need, or absent reasonable       referring patients to the nursing home in return for
Federal health care programs. This report, in both        efforts to collect the cost-sharing        the nursing home’s referral to the hospice. While
an on-line searchable and downloadable database,          amount; 66                                 the Special Fraud Alert focused on arrangements
can be located on the Internet at http://                                                            with hospices, nursing facilities should adopt
www.hhs.gov/oig. In addition, the General Services                                                                 policies that prohibit similar questionable
                                                            62 The anti-kickback statute provides criminal
Administration maintains a monthly listing of                                                                      arrangements with all health care providers.
debarred contractors, ‘‘List of Parties Excluded          penalties for individuals and entities that                 68 Providers should establish clear policies

From Federal Procurement and Nonprocurement               knowingly offer, pay, solicit or receive bribes,         governing gift-giving, because such exchanges may
Programs,’’ at http://epls.arnet.gov.                     kickbacks, or other remuneration in order to induce      be viewed as inducements to influence business
  The OIG sanction information is readily available       business reimbursable by Federal health care             decisions. Offering or providing any gift of more
to users in two formats on over 15,000 individuals        programs. See 42 U.S.C. 1320a–7b(b). Civil               than nominal value to any beneficiary may be done
and entities currently excluded from program              penalties and exclusion from participation in the        with the intent to inappropriately influence health
participation through action taken by the OIG. The        Federal health care programs may also result from        care decisions of the beneficiary or his or her
on-line searchable database allows users to obtain        a violation of the prohibition. See 42 U.S.C. 1320a–     family. Similarly, accepting gifts, hospitality, or
information regarding excluded individuals and            7a(a)(5) and 1320a–7(b)(7).                              entertainment from a source that is in a position to
                                                            63 The Stark physician self-referral law prohibits
entities sorted by: (1) the legal bases for exclusions;                                                            benefit from the referral of business, raises concerns
(2) the types of individuals and entities excluded        a physician from making a referral to an entity with     that the gift may influence the employee’s
by the OIG; and (3) the States where excluded             which the physician or any member of the                 independent judgment. If the provider decides to
individuals reside or entities do business.               physician’s immediate family has a financial             allow employees to accept gifts or other gratuities
  61 The introduction of PPS and consolidated             relationship, if the referral is for the furnishing of   below a certain nominal value or in an aggregate
billing for Medicare Part B services means that           designated health services. See 42 U.S.C. 1395nn.        amount below an established amount per year, the
                                                            64 The OIG has issued several advisory opinions        provider should consider requiring employees to
vendors and their subcontractors no longer submit
bills directly to Medicare for their services. Instead,   applying the anti-kickback statute to arrangements       report those gifts.
the nursing facility will be submitting consolidated      that affect nursing facilities. The opinions are            69 See 42 U.S.C. 1320a–7b(d)(2), which prescribes

bills for certain services provided to residents.         available on the Internet at http://www.hhs.gov/oig.     criminal penalties for knowingly and willfully
                                                            65 Contracts between the facility and any entity in    charging for services provided to a Medicaid patient
Because of the new responsibilities that are
imposed on nursing facilities under these                 which the facility’s medical director has a financial    in excess of the rates established by the State. See
reimbursement schemes, the facility may be held           interest may be subject to the Stark law and should      also 42 CFR 483.12(d).
responsible if it claims reimbursement for items or       be reviewed and approved by legal counsel.                  70 Under PPS, the payment rates represent

services provided by a contractor that has been             66 In the OIG Special Fraud Alert ‘‘Routine            payment in full, subject to applicable coinsurance.
excluded.                                                 Waiver of Part B Co-payments/Deductibles’’ (May                                                      Continued
14298                          Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices

  • financial arrangements with                           policies reflect current positions and                   care program requirements. For
physicians, including the facility’s                      opinions. Most of these documents are                    example, where a nursing facility
medical director; 71                                      readily available on the Internet.                       requests advice from a Government
  • arrangements with vendors that                        Further, nursing facility policies should                agency (including a Medicare fiscal
result in the nursing facility receiving                  provide that all nursing facility                        intermediary or carrier) charged with
non-covered items (such as disposable                     contracts and arrangements with actual                   administering a Federal health care
adult diapers) at below market prices or                  or potential sources of referrals are                    program, the nursing facility should
no charge, provided the facility orders                   reviewed by counsel and comply with                      document and retain a record of the
Medicare-reimbursed products; 72                          applicable statutes and requirements.                    request and any written or oral
  • soliciting or receiving items of                                                                               response. This step is extremely
value in exchange for providing the                       3. Creation and Retention of Records
                                                                                                                   important if the nursing facility intends
supplier access to residents’ medical                        When implementing a compliance                        to rely on that response to guide it in
records and other information needed to                   program, nursing facilities should                       future decisions, actions, or claim
bill Medicare; 73                                         provide for the development and                          reimbursement requests or appeals. A
  • joint ventures with entities                          implementation of a records system that                  log of oral inquiries between the nursing
supplying goods or services; 74 and                       ensures complete and accurate medical                    facility and third parties will help the
  • swapping.75                                           record documentation. This system                        organization document its attempts at
  In order to keep current with this area                 should establish policies and                            compliance. In addition, these records
of the law, a nursing facility should                     procedures regarding the creation,                       may become relevant in a subsequent
obtain copies of all relevant OIG and                     distribution, retention, and destruction                 investigation to the issue of whether the
HCFA regulations, Special Fraud Alerts,                   of documents. Policies should provide
and Advisory Opinions that address the                                                                             facility’s reliance was ‘‘reasonable’’ and
                                                          for the complete, accurate, and timely                   whether it exercised due diligence in
application of the anti-kickback and                      documentation of all nursing and
Stark self-referral laws to ensure that the                                                                        developing procedures and practices to
                                                          therapy services, including                              implement the advice.
                                                          subcontracted services, as well as MDS                      In short, all nursing facilities,
This includes payment for all costs associated with
furnishing covered SNF services to Medicare               information. In designing a records                      regardless of size, must retain
beneficiaries. It is impermissible for a hospital to      systems, privacy concerns and                            appropriate documentation. Further, the
pay for SNF services if it were to do so only for         regulatory requirements also should be                   OIG recommends that the nursing
those residents who are Medicare beneficiaries            taken into consideration.
discharged from that hospital. However, it would be
                                                                                                                   facility:
permissible for a hospital to provide or pay for             In addition to maintaining                               • secure this information in a safe
items or services that are furnished to SNF residents     appropriate and thorough medical                         place;
generally, if such payments are made without              records on each resident, the OIG                           • maintain hard copies of all
regard to the payment source for the individual           recommends that the system should                        electronic or database documentation;
resident. In addition, a hospital and a SNF can enter
into a permissible bed reservation agreement. See         include the following types of                              • limit access to such documentation
Provider Reimbursement Manual, Part I, section            documents:                                               to avoid accidental or intentional
2105.3.                                                      • all records and documentation (e.g.,                fabrication or destruction of records; 78
   71 All physician contracts and agreements should
                                                          billing and claims documentation)                        and
be reviewed to avoid violation of the anti-kickback,      required for participation in Federal,                      • conform document retention and
self-referral, and other relevant Federal and State
laws. The OIG has published safe harbors that             State, and private health care programs,                 destruction policies to applicable laws.
define practices not subject to the anti-kickback         including the resident assessment                           As the Government increases its
statute, because such arrangements would be               instrument, the comprehensive plan of                    reliance on electronic data interchange
unlikely to result in fraud or abuse. Failure to          care and all corrective actions taken in                 to conduct business and gather
comply with a safe harbor provision does not make
an arrangement per se illegal. Rather, the safe           response to surveys; 76                                  information more quickly and
harbors set forth specific conditions that, if fully         • all records, documentation, and                     efficiently, it is important that the
met, would assure the entities involved of not being      audit data that support and explain cost                 nursing facility work toward the goal of
prosecuted or sanctioned for the arrangement              reports and other financial activity,                    developing the capacity to ensure that
qualifying for the safe harbor. One such safe harbor
applies to personal services contracts. See 42 CFR        including any internal or external                       all informational systems maintained by
1001.952(d).                                              compliance monitoring activities; and                    the facility are in working order,
   72 See OIG Special Fraud Alert ‘‘Fraud and Abuse          • all records necessary to demonstrate                secured, and capable of accessing
in the Provision of Medical Supplies to Nursing           the integrity of the nursing facility                    Federal and State databases.
Facilities’’ (August 1995). As well as violating the      compliance process and to confirm the
anti-kickback statute, both the supplier and the                                                                   4. Compliance as an Element of
nursing facility may be liable for false claims if the    effectiveness of the program.77
                                                             While conducting its compliance                       Employee Performance
medically unnecessary items are billed to Federal
health care programs. See also OIG Advisory               activities, as well as its daily operations,                Compliance programs should require
Opinion 99–2 (February 1999).                             a nursing facility should document its                   the promotion of, and adherence to, the
   73 In addition to raising concerns related to the
                                                          efforts to comply with applicable                        elements of the compliance program to
anti-kickback statute, the unauthorized disclosure
of confidential records violates the resident’s rights.   statutes, regulations, and Federal health                be a factor in evaluating the
See 42 CFR 483.10(e).                                                                                              performance of all employees.
   74 See OIG Special Fraud Alert ‘‘Joint Venture           76 Medical record documentation should support         Employees should be periodically
Arrangements’’ (August 1989); OIG Special Fraud           the medical necessity of the services provided as        trained in new compliance policies and
Alert ‘‘Fraud and Abuse in the Provision of Services      well as the level of service billed.
in Nursing Facilities’’ (May 1996).                         77 Among the materials useful in documenting the
                                                                                                                   procedures. In addition, policies should
   75 ‘‘Swapping’’ occurs when a supplier gives a         compliance program are employee certifications           require that managers, especially those
nursing facility discounts on Medicare Part A items       relating to training and other compliance initiatives,
and services in return for the referrals of Medicare      copies of compliance training materials, and hotline       78 In addition to prohibiting the falsification and

Part B business. With swapping, there is a risk that      logs and any corresponding reports of investigation,     backdating of records, the provider should have
suppliers may offer a SNF an excessively low price        outcomes, and employee disciplinary actions. In          clear guidelines, consistent with applicable
for items or services reimbursed under PPS in             addition, the facility should keep all relevant          professional and legal standards, that set out those
return for the ability to service and bill nursing        correspondence with carriers, fiscal intermediaries,     individuals with authority to make entries in the
facility residents with Part B coverage. See OIG          private health insurers, HCFA, and State survey and      medical record and the circumstances when late
Advisory Opinion 99–2 (February 1999).                    certification agencies.                                  entries may be made in a record.
                             Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices                                                  14299

involved in the direct care of residents            compliance officer with the appropriate                     • ensuring that independent
and in claims development and                       authority is critical to the success of the              contractors and agents who furnish
submission:                                         program, necessitating the appointment                   physician, nursing, or other health care
   • discuss with all supervised                    of a high-level official with direct access              services to the residents of the nursing
employees and relevant contractors the              to the nursing facility’s president or                   facility are aware of the residents’ rights
compliance policies and legal                       CEO, governing body, all other senior                    as well as requirements of the nursing
requirements applicable to their                    management, and legal counsel. 80 The                    facility’s compliance program
function;                                           officer should have sufficient funding                   applicable to the services they provide;
   • inform all supervised personnel                and staff to perform his or her                             • coordinating personnel issues with
that strict compliance with these                   responsibilities fully.                                  the nursing facility’s Human Resources/
policies and procedures is a condition                 Coordination and communication are                    Personnel office (or its equivalent) to
of employment; and                                  the key functions of the compliance                      ensure that (i) the National Practitioner
   • disclose to all supervised personnel           officer with regard to planning,                         Data Bank 81 has been checked with
that the nursing facility will take                 implementing, and monitoring the                         respect to all medical staff and
disciplinary action, up to and including            compliance program. Particularly in a                    independent contractors (as
termination, for violation of these                 small facility, the compliance officer                   appropriate) and (ii) the OIG’s List of
policies or requirements.                           may need to rely on the expertise of                     Excluded Individuals/Entities 82 has
   Managers and supervisors should be               several professionals within the facility                been checked with respect to all
disciplined for failing to adequately               to carry out all of his or her                           employees, medical staff, and
instruct their subordinates or for failing          responsibilities. For example, the                       independent contractors; 83
to detect noncompliance with                        compliance officer may need the                             • assisting the nursing facility’s
applicable policies and legal                       payment specialist to help with billing                  financial management in coordinating
requirements, where reasonable                      issues, the director of nursing to address               internal compliance review and
diligence would have led to the                     quality of care issues, etc. At the same                 monitoring activities, including annual
discovery of any problems or violations             time, the compliance officer must retain                 or periodic reviews of departments;
and given the nursing facility the                  the integrity and objectivity not to                        • independently investigating and
opportunity to correct them earlier.                compromise the program in deference to                   acting on matters related to compliance,
Conversely, those supervisors who have              one or more disciplines or departments.                  including the flexibility to design and
demonstrated leadership in the                         The compliance officer’s primary                      coordinate internal investigations (e.g.,
advancement of the company’s code of                responsibilities should include:                         responding to reports of problems or
conduct and compliance objectives                      • overseeing and monitoring
                                                                                                             suspected violations) and any resulting
should be singled out for recognition.              implementation of the compliance
                                                                                                             corrective action (e.g., making necessary
   The OIG believes that all nursing                program;
                                                       • reporting on a regular basis to the                 improvements to nursing facility
facilities, regardless of resources or size,                                                                 policies and practices, taking
                                                    nursing facility’s governing body, CEO,
should ensure that its employees                                                                             appropriate disciplinary action, etc.)
                                                    and compliance committee (if
understand the importance of                                                                                 with all nursing facility departments,
                                                    applicable) on the progress of
compliance with program requirements                                                                         subcontracted providers, and health
                                                    implementation, and assisting these
and the value the company places on its                                                                      care professionals under the nursing
                                                    components in establishing methods to
compliance program. If the small                                                                             facility’s control;
                                                    improve the nursing facility’s efficiency
nursing facility does not have a formal
                                                    and quality of services, and to reduce                      • participating with facility’s counsel
employee evaluation system, it should               the facility’s vulnerability to fraud,                   in the appropriate reporting of self-
informally convey to employees their                abuse, and waste;                                        discovered violations of program
compliance responsibilities whenever                   • periodically revising the program in                requirements; and
the opportunity arises. Positive                    light of changes in the organization’s                      • continuing the momentum of the
reenforcement is generally more                     needs, and in the law and policies of                    compliance program after the initial
effective than sanctions in conditioning            Government and private payor health                      years of implementation.84
behavior and managers should be given               plans;                                                      The compliance officer must have the
mechanisms to reward employees who                     • developing, coordinating, and                       authority to review all documents and
promote compliance.                                 participating in a multifaceted                          other information that are relevant to
C. Designation of a Compliance Officer              educational and training program that                    compliance activities, including, but not
and a Compliance Committee                          focuses on the elements of the                           limited to, medical and billing records,
                                                    compliance program, and seeking to                       and documents concerning the
1. Compliance Officer                               ensure that all relevant employees and                   marketing efforts of the nursing facility
  Every nursing home provider should                management understand and comply                         and its arrangements with other health
designate a compliance officer to serve             with pertinent Federal and State
as the focal point for compliance                   standards;                                                 81 See note 59.
                                                                                                               82 See note 60.
activities.79 This responsibility may be                                                                       83 The compliance officer may also have to ensure
                                                       80 The OIG believes it is not advisable for the
the individual’s sole duty or added to                                                                       that the criminal backgrounds of employees have
                                                    compliance function to be subordinate to the
other management responsibilities,                  nursing facility’s general counsel, or comptroller or    been checked depending upon State requirements
depending upon the size and resources               similar financial officer. Free-standing compliance      or nursing facility policy.
                                                                                                               84 There are many approaches the compliance
of the nursing facility and the                     functions help to ensure independent and objective
                                                    legal reviews and financial analysis of the              officer may enlist to maintain the vitality of the
complexity of the task. Designating a               institution’s compliance efforts and activities. By      compliance program. Periodic on-site visits of
                                                    separating the compliance function from the key          nursing facility operations, bulletins with
  79 For multi-facility organizations, the OIG                                                               compliance updates and reminders, distribution of
                                                    management positions of general counsel or chief
encourages coordination with each facility owned    financial officer (where the size and structure of the   audiotapes or videotapes on different risk areas,
by the corporation through the use of a             nursing facility make this a feasible option), a         lectures at management and employee meetings,
headquarter’s compliance officer, communicating     system of checks and balances is established to          and circulation of recent health care articles
with parallel positions or compliance liaison in    more effectively achieve the goals of the compliance     covering fraud and abuse are some examples of
each facility or regional office, as appropriate.   program.                                                 approaches the compliance officer can employ.
14300                        Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices

care providers, including physicians                      • analyzing the legal requirements      whose job requirements make the
and independent contractors. This                      with which the nursing facility must       information relevant.87
review authority enables the compliance                comply, and specific risk areas;              The organization must take steps to
officer to examine contracts and                          • assessing existing policies and       communicate effectively its standards
obligations (seeking the advice of legal               procedures that address these risk areas   and procedures to all affected
counsel, where appropriate) that may                   for possible incorporation into the        employees, physicians, independent
contain referral and payment provisions                compliance program;                        contractors, and other significant agents
that could violate the anti-kickback                      • working with appropriate              by requiring participation in such
statute or regulatory requirements.                    departments to develop standards of        training programs or by other means,
                                                       conduct and policies and procedures to     such as disseminating publications that
   A small nursing facility may not have                                                          explain specific requirements in a
the resources to hire or appoint a full                promote compliance with legal and
                                                                                                  practical manner.88
time compliance officer. Multi-facility                ethical requirements;
                                                                                                     Managers of specific departments or
providers also may consider appointing                    • recommending and monitoring, in       groups can assist in identifying areas
one compliance officer at the corporate                conjunction with the relevant              that require training and in carrying out
level and designating compliance                       departments, the development of            such training.89 Training instructors
liaisons at each facility. In any event,               internal systems and controls to carry     may come from outside or inside the
each facility should have a person in its              out the organization’s policies;           organization, but must be qualified to
organization (this person may have                        • determining the appropriate           present the subject matter involved and
other functional responsibilities) who                 strategies and approaches to promote       sufficiently experienced in the issues
can oversee the nursing facility’s                     compliance with program requirements       presented to adequately field questions
compliance with applicable statutes,                   and detection of any potential             and coordinate discussions among those
rules, regulations, and policies. The                  violations, such as through hotlines and   being trained.
structure and comprehensiveness of the                 other fraud reporting mechanisms;             The nursing facility should train new
facility’s compliance program will help                   • developing a system to solicit,       employees soon after they have started
determine the responsibilities of each                 evaluate, and respond to complaints and    working.90 Appropriate training for
individual compliance officer.                         problems; and                              temporary employees should be
                                                          • monitoring internal and external      provided by the facility before they are
2. Compliance Committee                                                                           assigned responsibility for resident care.
                                                       audits and investigations for the
  The OIG recommends that a                            purpose of identifying deficiencies, and   Training programs and materials should
compliance committee be established to                 implementing corrective action.            be designed to take into account the
advise the compliance officer and assist                  The committee also may undertake        skills, experience, and knowledge of the
in the implementation of the                           other functions as the compliance          individual trainees. The compliance
compliance program.85 When                             concept becomes part of the overall        officer should document any formal
developing an appropriate team of                      nursing facility operating structure and   training undertaken by the nursing
people to serve as the nursing facility’s              daily routine. The compliance              facility as part of the compliance
compliance committee, a facility should                committee is an extension of the           program.
consider a variety of skills and                                                                     A variety of teaching methods, such
                                                       compliance officer and provides the
personality traits that are expected from                                                         as interactive training and, where a
                                                       organization with increased oversight.
those in such positions.86 Once a                                                                 nursing facility has a culturally diverse
                                                       The OIG recognizes that some nursing
nursing facility chooses the people that                                                          staff, training in different languages,
                                                       facilities may not have the resources or
will accept the responsibilities vested in                                                        should be implemented so that all
                                                       the need to establish a compliance
members of the compliance committee,                                                              affected employees (including
                                                       committee. However, when potential
the nursing facility needs to train these                                                         temporary employees) understand the
                                                       problems are identified, the OIG
individuals on the policies and                                                                   institution’s standards of conduct and
                                                       recommends these nursing facilities
procedures of the compliance program,                                                             procedures for alerting senior
                                                       create a ‘‘task force’’ to address the
as well as how to discharge their duties.                                                         management to problems and
                                                       particular problem. The members of the
                                                                                                  concerns.91
  The committee’s functions may                        task force may vary depending upon the
include:                                               issue.                                        87 Specific compliance training should

                                                       D. Conducting Effective Training and       complement any ‘‘in-service’’ training sessions that
   85 The compliance committee benefits from                                                      a nursing facility may regularly schedule to provide
                                                       Education                                  an ongoing program for the training of employees
having the perspectives of individuals with varying
                                                                                                  as required by the Medicare program.
responsibilities in the organization, such as             The proper education and training of       88 Some publications, such as OIG’s special Fraud
operations, finance, audit, human resources, and       corporate officers, managers, and health
clinical management (e.g., the medical director), as                                              Alerts, audit and inspection reports, and advisory
well as employees and managers of key operating        care professionals, and the continual      opinions are readily available from the OIG and can
units. The compliance officer should be an integral    retraining of current personnel at all     provide a basis for educational courses and
member of the committee as well. All committee         levels, are critical elements of an        programs for appropriate nursing facility
members should have the requisite seniority and                                                   employees.
                                                       effective compliance program. These           89 Significant variations in the functions and
comprehensive experience within their respective
departments to implement any necessary changes to      training programs should include           responsibilities of different departments or groups
policies and procedures as recommended by the          sessions summarizing the organization’s    may create the need for training materials that are
committee.                                             compliance program, fraud and abuse        tailored to compliance concerns associated with
   86 A health care provider should expect its                                                    particular operations and duties.
                                                       laws, and Federal health care program         90 Certain positions, such as those that involve
compliance committee members and compliance
officer to demonstrate high integrity, good
                                                       and private payor requirements. More       billing, coding and the submission of
judgment, assertiveness, and an approachable           specific training on issues such as        reimbursement data, create greater organizational
demeanor, while eliciting the respect and trust of     claims development and submission          legal exposure, and therefore require specialized
employees of the nursing facility. These               processes, residents’ rights, and          training. Those hired to treat residents should
interpersonal skills are as important as the                                                      undergo specialized training in residents’ rights.
professional experience of each member of the
                                                       marketing practices should be targeted        91 Post-training tests can be used to assess the

compliance committee.                                  at those employees and contractors         success of training provided and employee
                             Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices                                                        14301

   In addition to specific training in the             failure is serious. Adherence to the                     lines of communication. 97 If the nursing
risk areas identified in section II.B.2,               training requirements as well as other                   facility establishes a hotline, the
primary training for appropriate                       provisions of the compliance program                     telephone number should be made
corporate officers, managers, and facility             should be a factor in the annual                         readily available to all employees,
staff should include such topics as:                   evaluation of each employee. The                         independent contractors, residents, and
   • compliance with Medicare                          nursing facility should retain adequate                  family members by circulating the
participation requirements relevant to                 records of its training of employees,                    number on wallet cards or
their respective duties and                            including attendance logs and material                   conspicuously posting the telephone
responsibilities;                                      distributed at training sessions.                        number in common work areas. Nursing
   • appropriate and sufficient                                                                                 facilities also are required to post the
                                                       E. Developing Effective Lines of
documentation;                                                                                                  names, addresses and telephone
                                                       Communication
   • prohibitions on paying or receiving                                                                        numbers of all pertinent State client
remuneration to induce referrals;                      1. Access to the Compliance Officer                      advocacy groups such as the State
   • proper documentation in clinical or                  In order for a compliance program to                  survey and certification agency, State
financial records;                                     work, employees must be able to ask                      licensure office, State ombudsman
   • residents’ rights; and                            questions and report problems. The first                 program, the protection and advocacy
   • the duty to report misconduct.                    line supervisors play a key role in                      network, and the State Medicaid Fraud
   The OIG suggests that all relevant                  responding to employee concerns and it                   Control Unit.98
personnel participate in the various                   is appropriate that they serve as a first                   Employees should be permitted to
educational and training programs of                   line of communications. In order to                      report matters on an anonymous basis.
the nursing facility.92 Employees should               encourage communications,                                Matters reported through the hotline or
be required to have a minimum number                   confidentiality and non-retaliation                      other communication sources that
of educational hours per year, as                      policies should be developed and                         suggest substantial violations of
appropriate, as part of their employment               distributed to all employees.94                          compliance policies or Federal health
responsibilities.93 For example, for                      Open lines of communication                           care program statutes and regulations
certain employees involved in the                      between the compliance officer and                       should be documented and investigated
nursing facility admission functions,                  nursing facility employees is equally                    promptly to determine their veracity.
periodic training in applicable                        important to the successful                              The compliance officer should maintain
reimbursement coverage and eligibility                 implementation of a compliance                           a log that records such calls, including
requirements should be required. In                    program and the reduction of any                         the nature of any investigation and its
nursing facilities with high employee                  potential for fraud and abuse. In                        results.99 Such information, redacted of
turnover, periodic training updates are                addition to serving as a contact point for               individual identifiers, should be
critical.                                              reporting problems, the compliance                       included in reports to the governing
   The OIG recognizes that the format of               officer should be viewed as someone to                   body, the CEO, and compliance
the training program will vary                         whom personnel can go to get                             committee.100 While the nursing facility
depending upon the resources of the                    clarification on the facility’s policies.                should always strive to maintain the
nursing facility. For example, a nursing               Questions and responses should be                        confidentiality of an employee’s
facility with limited resources may want               documented and dated and, if                             identity, it also should make clear that
to create a videotape for each type of                 appropriate, shared with other staff so                  there may be a point where the
training session so new employees can                  that standards can be updated and                        individual’s identity may become
receive training in a timely manner. If                improved to reflect any necessary                        known or may have to be revealed in
videos are used for compliance training,               changes or clarifications.95                             certain instances. The OIG recognizes
the OIG suggests that a nursing facility                                                                        that protecting anonymity may be
make a knowledgeable individual                        2. Hotlines and Other Forms of                           infeasible for small nursing facilities.
available to field questions from video                Communication                                            However, the OIG believes all facility
trainees.                                                 The OIG encourages the use of                         employees, when seeking answers to
   The OIG recommends that                             hotlines, 96 e-mails, newsletters,                       questions or reporting potential
participation in training programs be                  suggestion boxes, and other forms of                     instances of fraud and abuse, should
made a condition of continued                          information exchange to maintain open                    know to whom to turn for attention and
employment and that failure to comply
                                                                                                                  97 In addition, an effective employee exit
with training requirements should result                  94 In some cases, employees sue their employers

                                                       under the False Claims Act’s qui tam provisions out      interview program could be designed to solicit
in disciplinary action, when such                                                                               information from departing employees regarding
                                                       of frustration because of the company?s failure to
                                                       take action when the employee brought a                  potential misconduct and suspected violations of
comprehension of the nursing facility’s policies and   questionable, fraudulent, or abusive situation to the    nursing facility policy and procedures.
procedures.                                            attention of senior corporate officials. Whistle           98 42 CFR 483.10(b)(7)(iii). Nursing facilities also
   92 In addition, where feasible, the OIG             blowers must be protected against retaliation, a         should post in a prominent area the HHS–OIG
recommends that a nursing facility give vendors        concept embodied in the provisions of the False          Hotline telephone number, 1–800–447–8477 (1–
and outside contractors the opportunity to             Claims Act. See 31 U.S.C. 3730(h).                       800–HHS–TIPS).
participate in the nursing facility’s compliance          95 Nursing facilities also may wish to consider         99 To efficiently and accurately fulfill such an

training and educational programs. Such training is    rewarding employees for appropriate use of               obligation, the nursing facility should create an
particularly important for facilities that rely on     established reporting systems. After all, the            intake form for all compliance issues identified
agencies to provide temporary direct care staff. The   employee who identifies and helps stop an abusive        through reporting mechanisms. The form could
introduction of consolidated billing gives added       practice can benefit the corporation as much as one      include information concerning the date that the
importance to educating vendors about the facility’s   who identifies cost-savings measures or increases        potential problem was reported, the results of the
compliance policies and procedures.                    corporate revenues.                                      internal investigation, and, as appropriate, the
   93 Currently, the OIG is monitoring a significant      96 The OIG recognizes that it may not be              corrective action implemented, the disciplinary
number of corporate integrity agreements that          financially feasible for a smaller nursing facility to   measures imposed, and any identified
require many of these training elements. The OIG       maintain a telephone hotline dedicated to receiving      overpayments returned.
usually requires a minimum of one to three hours       calls about compliance issues. These companies             100 Information obtained over the hotline may

annually for basic training in compliance areas.       may want to explore alternative methods, e.g.,           provide valuable insight into management practices
Additional training is required for specialty fields   outsourcing the hotline or establishing a written        and operations, whether reported problems are
such as claims development and billing.                method of confidential disclosure.                       actual or perceived.
14302                         Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices

should be able to do so without fear of                 Assurance Committee. Significant                            • testing the billing and claims
retribution.                                            variations from the baseline should                      reimbursement staff on its knowledge of
                                                        trigger an inquiry to determine the cause                applicable program requirements and
F. Auditing and Monitoring
                                                        of the deviation. If the inquiry                         claims and billing criteria;
   The OIG believes that an effective                   determines that the deviation occurred                      • unannounced mock surveys and
program should incorporate thorough                     for legitimate reasons, the compliance                   audits;
monitoring of its implementation and an                 officer and nursing facility management                     • examination of the organization’s
ongoing evaluation process. The                         may want to take no action. If it is                     complaint logs and investigative files;
compliance officer should document                      determined that the deviation was                           • legal assessment of all contractual
this ongoing monitoring, including                      caused by a departure from or                            relationships with contractors,
reports of suspected noncompliance,                     misunderstanding of the facility’s                       consultants and potential referral
and share these assessments with the                    policies, the nursing facility should take               sources;
nursing facility’s senior management                    prompt steps to correct the problem.                        • reevaluation of deficiencies cited in
and the compliance committee. The                       Any overpayments discovered as a                         past surveys for State requirements and
extent and frequency of the compliance                  result of such deviations should be                      Medicare participation requirements;
audits may vary depending on variables                  returned promptly to the affected                           • checking personnel records to
such as the nursing facility’s available                payor,104 with appropriate                               determine whether individuals who
resources, prior history of                             documentation and a sufficiently                         previously have been reprimanded for
noncompliance, and the risk factors                     detailed explanation of the reason for                   compliance issues are now conforming
particular to the facility.101                          the refund.105                                           to facility policies;
   Although many assessment                                In addition to evaluating the facility’s                 • questionnaires developed to solicit
techniques are available, one effective                 conformance with program rules, an                       impressions of a broad cross-section of
tool is the performance of regular,                                                                              the nursing facility’s employees and
                                                        effective compliance program also
periodic compliance audits by internal                                                                           staff concerning adherence to the code
                                                        should incorporate periodic (at least
or external evaluators who have                                                                                  of conduct and policies and procedures,
                                                        annual) reviews of whether the
expertise in Federal and State health                                                                            as well as their work loads and ability
                                                        program’s compliance elements have
care statutes, regulations, and program                                                                          to address the residents’ activities of
                                                        been satisfied, e.g., whether there has
requirements, as well as private payor                                                                           daily living;
                                                        been appropriate dissemination of the
rules. These assessments should focus                                                                               • validation of qualifications of
                                                        program’s standards, ongoing
both on the nursing facility’s day-to-day
                                                        educational programs, and internal                       nursing facility physicians and other
operations, as well as its adherence to
                                                        investigations of alleged non-                           staff, including verification of
the rules governing claims development,
                                                        compliance. This process will assess                     applicable State license renewals;
billing and cost reports, and
                                                        actual conformance by all departments                       • trend analysis, or longitudinal
relationships with third parties. The
                                                        with the compliance program and may                      studies, that uncover deviations in
reviews also should address the nursing
                                                        identify areas for improvements in the                   specific areas over a given period; and
facility’s compliance with Medicare
                                                        program, as well as the nursing facility’s                  • analyzing past survey reports for
requirements and the specific rules and
                                                        general operations.                                      patterns of deficiencies to determine if
policies that have been the focus of
                                                           The OIG requires a provider operating                 the proposed corrective plan of action
particular attention by the Medicare
                                                        under a CIA to conduct an annual                         identified and corrected the underlying
fiscal intermediaries or carriers, survey
                                                        assessment of its compliance with the                    problem.
agencies, and law enforcement.102
   Monitoring techniques may include                    elements of the CIA. A compliance                           The reviewers should:
sampling protocols that permit the                      officer may want to review several CIAs                     • have the qualifications and
compliance officer to identify and                      in designing the facility’s self-audit                   experience necessary to adequately
review variations from an established                   protocol.106                                             identify potential issues with the subject
performance baseline.103 This                              As part of the review process, the                    matter that is reviewed;
performance baseline should include                     compliance officer or reviewers should                      • be objective and independent of
measurable patient outcomes, such as                    consider techniques such as:                             line management to the extent
resident weight maintenance and                            • on-site visits to all facilities owned              reasonably possible; 107
pressure ulcers, established by the                     and/or operated by the nursing home                         • have access to existing audit and
facility’s Quality Assessment and                       owner;                                                   health care resources, relevant
                                                                                                                 personnel, and all relevant areas of
  101 Even when a nursing facility or group of             104 See Provider Reimbursement Manual Part I,         operation;
facilities is owned by a larger corporate entity, the   section 2836(D)(3), which sets out the MDS                  • present written evaluative reports
regular auditing and monitoring of the compliance       correction policy.                                       on compliance activities to the CEO,
activities of an individual facility must be a key         105 In addition, when appropriate, as referenced

feature in any annual review. Appropriate reports       in section II.H.2, below, reports of fraud or systemic
                                                                                                                 governing body, and members of the
on audit findings should be periodically provided       problems also should be made to the appropriate          compliance committee on a regular
and explained to a parent organization’s senior staff   governmental authority.                                  basis, but no less often than annually;
and officers.                                              106 Examples of CIA audit protocols can be
                                                                                                                 and
                                                                                                                    • specifically identify areas where
  102 See also section II.B.2.                          obtained from the OIG by submitting a request
  103 The OIG recommends that when a compliance         pursuant to the Freedom of Information Act. The
program is established in a nursing facility, the       OIG recently has entered into CIAs with a number         corrective actions are needed.
compliance officer, with the assistance of              of nursing home providers that may be of particular         The extent and scope of a nursing
department managers, should take a ‘‘snapshot’’ of      relevance. In addition, the American Institute of        facility’s compliance self-audits will
their operations from a compliance perspective.         Certified Public Accountants (AICPA) has issued a        depend on the facility’s identified risk
This assessment can be undertaken by outside            detailed guide for conducting an independent
consultants or internal staff, provided they have       assessment of a health care provider’s conformance       areas, past history of deficiencies and
knowledge of health care program requirements.          to a CIA. See AICPA Statement of Position 99–1,
This ‘‘snapshot’’ can serve as a baseline for the       ‘‘Guidance to Practitioners in Conducting and              107 The OIG recognizes that nursing facilities that

compliance officer and other managers to judge the      Reporting on an Agreed-Upon Procedures                   have limited resources may not be able to use
nursing facility’s progress in reducing potential       Engagement to Assist in Evaluating Compliance            internal reviewers who are not part of line
areas of vulnerability.                                 with a Corporate Integrity Agreement’’ (May 1999).       management or hire outside reviewers.
                        Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices                                                    14303

enforcement actions, and resources. If        their subordinates to adhere to, the                     believes that the facility needs to alert
the facility comes under Government           applicable standards, laws, and                          the compliance officer to those
scrutiny in the future, the Government        procedures.                                              overpayments that may reveal trends or
will assess whether the facility                                                                       patterns indicative of a systemic
                                              H. Responding to Detected Offenses and
developed a reasonable audit plan based       Developing Corrective Action Initiatives                 problem.
upon identified risk areas and resources.                                                                 Where there are indications of
If the Government determines that the            Violations of a nursing facility’s
                                              compliance program, failures to comply                   potential fraud, an internal investigation
nursing facility failed to develop an                                                                  may be warranted and will probably
adequate audit program, the                   with applicable Federal or State law,
                                              and other types of misconduct threaten                   include interviews and a review of
Government will be less likely to afford
                                              a facility’s status as a reliable, honest                relevant documents. Under some
the nursing facility favorable treatment
                                              and trustworthy provider of health care.                 circumstances, the facility may need to
under the Federal Sentencing
                                              Detected but uncorrected deficiencies                    consider engaging outside counsel,
Guidelines.
                                              can seriously endanger the reputation                    auditors, or health care experts to assist
G. Enforcing Standards Through Well-          and legal status of the nursing facility.                in an investigation. The investigative
Publicized Disciplinary Guidelines            Consequently, upon receipt of reports or                 file should contain documentation of
                                              reasonable indications of suspected                      the alleged violation, a description of
1. Disciplinary Policy and Enforcement
                                              noncompliance, it is important that the                  the investigative process (including the
   An effective compliance program            compliance officer or other management                   objectivity of the investigators and
should include disciplinary policies          officials immediately investigate the                    methodologies utilized), copies of
that set out the consequences of              allegations to determine whether a                       interview notes and key documents, a
violating the nursing facility’s standards    material violation of applicable law or                  log of the witnesses interviewed and the
of conduct, policies, and procedures.         the requirements of the compliance                       documents reviewed, the results of the
Intentional noncompliance should              program has occurred and, if so, take                    investigation, e.g., any disciplinary
subject transgressors to significant          decisive steps to correct the problem.108                action taken, and the corrective action
sanctions. Such sanctions could range         As appropriate, such steps may include                   implemented. While any action taken as
from oral warnings to suspension,             a corrective action plan,109 the return of               the result of an investigation will
termination, or financial penalties, as       any overpayments, a report to the                        necessarily vary depending upon the
appropriate. Disciplinary action may be       Government,110 and/or a referral to                      situation, nursing facilities should strive
appropriate where a responsible               criminal and/or civil law enforcement                    for some consistency by using sound
employee’s failure to detect a violation      authorities.                                             practices and disciplinary protocols.111
is attributable to his or her negligence or      Where potential fraud is not involved,                Further, the compliance officer should
reckless conduct. Each situation must be      the OIG recommends that the nursing                      review the circumstances that formed
considered on a case-by-case basis to         facility use normal repayment channels                   the basis for the investigation to
determine the appropriate response.           to return overpayments as they are                       determine whether similar problems
   The written standards of conduct           discovered. However, even if the                         have been uncovered or modifications
should elaborate on the procedures for        nursing facility’s billing department is                 of the compliance program are
handling disciplinary problems and            effectively using the overpayment                        necessary to prevent and detect other
those who will be responsible for taking      detection and return process, the OIG                    inappropriate conduct or violations.
appropriate action. Some disciplinary
actions can be handled by department             108 Instances of noncompliance must be                   If the nursing facility undertakes an
or agency managers, while others may          determined on a case-by-case basis. The existence        investigation of an alleged violation and
                                              or amount of a monetary loss to a health care            the compliance officer believes the
have to be resolved by a senior               program is not solely determinative of whether the
administrator. The nursing facility           conduct should be investigated and reported to
                                                                                                       integrity of the investigation may be at
should advise personnel that                  governmental authorities. In fact, there may be          stake because of the presence of
disciplinary action will be taken on a        instances where there is no readily identifiable         employees under investigation, the
                                              monetary loss, but corrective actions are still          facility should remove those individuals
fair and equitable basis. Managers and        necessary to protect the integrity of the applicable
supervisors should be made aware that         program and its beneficiaries, e.g., where failure to    from their current responsibilities until
they have a responsibility to discipline      comply with the facility’s policies and procedures       the investigation is completed (unless
employees in an appropriate and               results in inadequate or inappropriate care being        there is an ongoing internal or
                                              furnished to a facility resident.
consistent manner.                               109 The nursing facility may seek advice from its
                                                                                                       Government-led undercover operation
   It is vital to publish and disseminate     in-house counsel or an outside law firm to               known to the nursing facility). In
the range of disciplinary standards for       determine the extent of the facility’s liability and     addition, the compliance officer should
improper conduct and to educate               to plan the appropriate course of action.                take appropriate steps to secure or
                                                 110 Nursing facilities are required to immediately
employees regarding these standards.                                                                   prevent the destruction of documents or
                                              report all alleged incidents of mistreatment, neglect,
The consequences of noncompliance             abuse (including injuries of unknown source), and        other evidence relevant to the
should be consistently applied and            misappropriation of resident property to both the        investigation. If the nursing facility
enforced, in order for the disciplinary       facility administrator and other officials in            determines that disciplinary action is
policy to have the required deterrent         accordance with State law. See 42 CFR 483.13(c)(2).
                                              This is the appropriate channel for reporting quality
                                                                                                       warranted, it should be promptly
effect. All levels of employees should be     of care issues. The OIG also has established a           imposed in accordance with the
potentially subject to the same types of      provider self-disclosure protocol that encourages        facility’s written standards of
disciplinary action for the commission        providers voluntarily to report suspected fraud. The     disciplinary action.
of similar offenses, because the              concept of voluntary self-disclosure is premised on
                                              a recognition that the Government alone cannot
commitment to compliance applies to           protect the integrity of Medicare and other Federal        111 The parameters of a claims review subject to

all personnel within a nursing facility.      health care programs. Health care providers must be      an internal investigation will depend on the
This means that corporate officers,           willing to police themselves, correct underlying         circumstances surrounding the issues identified. By
                                              problems, and work with the Government to resolve        limiting the scope of an internal audit to current
managers, and supervisors should be           these matters. The self-disclosure protocol can be       billing, a nursing facility may fail to discover major
held accountable for failing to comply        located on the OIG’s web site at: http://                problems and deficiencies in operations, and may
with, or for the foreseeable failure of       www.hhs.gov/oig.                                         subject itself to liability.
14304                         Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices

1. Reporting                                             appropriate governmental authority of                  performance is therefore integral to its
   Where the compliance officer,                         the outcome of the investigation,                      success. The attributes of each
compliance committee, or a                               including a description of the impact of               individual element of a compliance
management official discovers credible                   the alleged violation on the operation of              program must be evaluated in order to
evidence of misconduct from any source                   the applicable health care programs or                 assess the program’s ‘‘effectiveness’’ as
and, after a reasonable inquiry, has                     their beneficiaries. If the investigation              a whole. Examining the
reason to believe that the misconduct                    ultimately reveals that criminal, civil or             comprehensiveness of policies and
may violate criminal, civil or                           administrative violations have occurred,               procedures implemented to satisfy these
administrative law, the facility should                  the nursing facility should immediately                elements is merely the first step.
promptly report the existence of                         notify appropriate Federal and State                   Evaluating how a compliance program
misconduct to the appropriate Federal                    authorities.                                           performs during the provider’s day-to-
and State authorities 112 within a                         As previously stated, the nursing                    day operations becomes the critical
reasonable period, but not more than 60                  facility should take appropriate                       indicator.118
days 113 after determining that there is                 corrective action, including prompt                       As previously stated, a compliance
credible evidence of a violation.114                     identification and return of any                       program should require the
Prompt voluntary reporting will                          overpayment to the affected payor. If                  development and distribution of written
demonstrate the nursing facility’s good                  potential fraud is involved, the nursing               compliance policies, standards, and
faith and willingness to work with                       facility should return any overpayment                 practices that identify specific areas of
governmental authorities to correct and                  during the course of its disclosure to the             risk and vulnerability. One way to judge
remedy the problem. In addition,                         Government. Otherwise, the nursing                     whether these policies, standards, and
reporting such conduct will be                           facility should use normal repayment                   practices measure up is to observe how
considered a mitigating factor by the                    channels for reimbursing identified                    an organization’s employees react to
OIG in determining administrative                        overpayments.116 A knowing and                         them. Do employees experience
sanctions (e.g., penalties, assessments,                 willful failure to disclose overpayments               recurring pitfalls because the guidance
and exclusion), if the reporting provider                within a reasonable period of time could               on certain issues is not adequately
becomes the target of an OIG                             be interpreted as an attempt to conceal                covered in company policies? Do
investigation.115                                        the overpayment from the Government,                   employees flagrantly disobey an
   When reporting to the Government, a                   thereby establishing an independent                    organization’s standards of conduct
nursing facility should provide all                      basis for a criminal violation with                    because they observe no sincere buy-in
evidence relevant to the alleged                         respect to the nursing facility, as well as            from senior management? Do employees
violation of applicable Federal or State                 any individual who may have been                       have trouble understanding policies and
law(s) and potential cost impact. The                    involved.117 For this reason, nursing                  procedures because they are written in
compliance officer, under advice of                      facility compliance programs should                    legalese or at difficult reading levels?
counsel and with guidance from the                       emphasize that overpayments should be                  Does an organization routinely
governmental authorities, could be                       promptly disclosed and returned to the                 experience systematic billing failures
requested to continue to investigate the                 entity that made the erroneous payment.                because of poor instructions to
reported violation. Once the                                                                                    employees on how to implement written
                                                         III. Assessing the Effectiveness of a
investigation is completed, the                                                                                 policies and practices? Written
                                                         Compliance Program
compliance officer should notify the                                                                            compliance policies, standards, and
                                                            Considering the financial and human                 practices are only as good as an
   112 Appropriate Federal and State authorities
                                                         resources needed to establish an                       organization’s commitment to apply
include the OIG, the Criminal and Civil Divisions        effective compliance program, sound                    them in practice.
of the Department of Justice, the U.S. Attorney in       business principles dictate that the                      Every nursing facility needs to
relevant districts, the Federal Bureau of                nursing home’s management evaluate                     seriously consider whoever fills the
Investigation, and the other investigative arms for
the agencies administering the affected Federal or
                                                         the return on that investment. In                      integral roles of compliance officer and
State health care programs, such as the State Survey     addition, a compliance program must be                 compliance committee members, and
Agency, the State Medicaid Fraud Control Unit, the       ‘‘effective’’ for the Government to view               periodically monitor how the
Defense Criminal Investigative Service, the              its existence as a mitigating factor when              individuals chosen satisfy their
Department of Veterans Affairs, and the Office of
Personnel Management (which administers the
                                                         assessing culpability. How a nursing                   responsibilities. Does a compliance
Federal Employee Health Benefits Program). State         facility assesses its compliance program               officer have sufficient professional
law may further specify types of misconduct and to                                                              experience working with billing,
whom a facility must report its findings. See note         115 The OIG has published criteria setting forth
                                                                                                                clinical records, documentation, and
110.                                                     those factors that the OIG takes into consideration
   113 In contrast, to qualify for the ‘‘not less than   in determining whether it is appropriate to exclude
                                                                                                                auditing principles to perform assigned
double damages’’ provision of the False Claims Act,      a health care provider from program participation      responsibilities fully? Has a compliance
the provider must provide the report to the              pursuant to 42 U.S.C. 1320a–7(b)(7) for violations     officer or compliance committee been
Government within 30 days after the date when the        of various fraud and abuse laws. See 62 FR 67392       unsuccessful in fulfilling their duties
provider first obtained the information. See 31          (December 24, 1997).
U.S.C. 3729(a).                                            116 A nursing facility should consult with its
                                                                                                                because of inadequate funding, staff,
   114 Some violations may be so serious that they       Medicare fiscal intermediary (FI) and the              and authority necessary to carry out
warrant immediate notification to governmental           appropriate sections of the Provider Reimbursement     their jobs? Did the addition of the
authorities prior to, or simultaneous with,              Manual for additional guidance regarding refunds       compliance officer function to a key
commencing an internal investigation. By way of          under Medicare Part A. See note 104. The FI may        management position with other
example, the OIG believes a provider should report       require certain information (e.g., alleged violation
misconduct that: (1) is a clear violation of OIG         or issue causing overpayment, description of the       significant duties compromise the goals
administrative authorities, or civil or criminal fraud   internal investigative process with methodologies      of the compliance program (e.g., chief
laws; (2) has a significant adverse effect on the        used to determine any overpayments, and                financial officer who discounts certain
quality of care provided to residents (in addition to    corrective actions taken, etc.) to be submitted with   overpayments identified to improve the
any other legal obligations regarding quality of         the return of any overpayments, and that such
care); or (3) indicates evidence of a systemic failure   repayment information be submitted to a specific       company’s bottom line profits)? Since a
to comply with applicable laws or an existing            department or individual. When appropriate,
corporate integrity agreement, regardless of the         interest may be assessed on the overpayment. See         117 See   42 U.S.C. 1320a–7b(a)(3) and 18 U.S.C.
financial impact on Federal health care programs.        42 CFR 405.378.                                        669.
                       Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices                             14305

compliance officer and a compliance         actions taken by an organization can be      would indicate an ineffective
committee can have a significant impact     insightful. Have appropriate sanctions       compliance program.
on how effectively a compliance             been applied to compliance                      Documentation is the key to
program is implemented, those               misconduct? Are sanctions applied to         demonstrating the effectiveness of a
functions should not be taken for           all employees consistently, regardless of    nursing facility’s compliance program.
granted.                                    an employee’s level in the corporate         For example, documentation of the
   As evidenced throughout this             hierarchy? Have double-standards in          following should be maintained: audit
guidance, the proper education and          discipline bred cynicism among               results; logs of hotline calls and their
training of corporate officers, managers,   employees? When disciplinary action is       resolution; corrective action plans; due
health care professionals, and other        not taken seriously or applied               diligence efforts regarding business
applicable employees of a provider, and     haphazardly, such practices reflect          transactions; records of employee
the continual retraining of current         poorly on senior management’s                training, including the number of
personnel at all levels, are significant    commitment to foster compliance as           training hours; disciplinary action; and
elements of an effective compliance         well as the effectiveness of an              modification and distribution of policies
program. Accordingly, such efforts          organization’s compliance program in         and procedures. Because the OIG
should be routinely evaluated. How          general.                                     encourages self-disclosure of
frequently are employees trained? Are          Another critical component of a           overpayments and billing irregularities,
employees tested after training? Do the     successful compliance program is an          maintaining a record of disclosures and
training sessions and materials             ongoing monitoring and auditing              refunds to the Federal health care
adequately summarize the important          process. The extent and frequency of the     programs and private insurers is
aspects of the organization’s compliance    audit function may vary depending on         strongly endorsed. A documented
program? Are training instructors           factors such as the size and available       practice of refunding of overpayments
qualified to present the subject matter     resources, prior history of                  and self-disclosing incidents of non-
and field questions? When thorough          noncompliance, and risk factors of a         compliance with Federal and private
compliance training is periodically         particular nursing facility. The hallmark    payor health care program requirements
conducted, employees receive the            of effective monitoring and auditing         is powerful evidence of a meaningful
reinforcement they need to ensure an        efforts is how an organization               compliance effort.
effective compliance program.               determines the parameters of its
   An open line of communication            reviews. Do audits focus on all pertinent    IV. Conclusion
between the compliance officer and a        departments of an organization? Does an
                                                                                            Through this document, the OIG has
provider’s employees is equally             audit cover compliance with all
important to the success of a                                                            attempted to provide a foundation for
                                            applicable laws, as well as Federal and
compliance program. In today’s                                                           the process necessary to develop an
                                            private payor requirements? Are results
intensive regulatory environment, the                                                    effective and cost-efficient nursing
                                            of past audits, pre-established baselines,
OIG believes that a provider cannot                                                      facility compliance program. However,
                                            or prior deficiencies reevaluated? Are
possibly have an effective compliance                                                    each program must be tailored to fit the
                                            the elements of the compliance program
program if it does not receive feedback                                                  needs and resources of a particular
                                            monitored? Are auditing techniques
from its employees regarding                                                             facility, depending upon its unique
                                            valid and conducted by objective
compliance matters. For instance, if a                                                   corporate structure, mission, and
                                            reviewers? The extent and sincerity of
compliance officer does not receive         an organization’s efforts to confirm its     employee composition. The statutes,
appropriate inquiries from employees:       compliance often proves to be a              regulations, and guidelines of the
Do policies and procedures adequately       revealing determinant of a compliance        Federal health care programs, as well as
guide employees to whom and when            program’s effectiveness.                     the policies and procedures of private
they should be communicating                   It is essential that the compliance       health plans, should be integrated into
compliance matters? Are employees           officer or other management officials        every nursing facility’s compliance
confident that they can report              immediately investigate reports or           program.
compliance matters to management            reasonable indications of suspected             The OIG recognizes that the health
without fear of retaliation? Are            noncompliance. If a material violation       care industry in this country, which
employees reporting issues through the      of applicable law or compliance              reaches millions of beneficiaries and
proper channels? Do employees have          program requirements has occurred, a         expends about a trillion dollars
the proper motives for reporting            provider must take decisive steps to         annually, is constantly evolving. The
compliance matters? Regardless of the       correct the problem. Nursing facilities      time is right for nursing facilities to
means that a provider uses, whether it      that do not thoroughly investigate           implement a strong voluntary health
is telephone hotline, email, or             misconduct leave themselves open to          care compliance program. Compliance
suggestion boxes, employees should          undiscovered problems. When a                is a dynamic process that helps to
seek clarification from compliance staff    provider learns of certain issues, it        ensure that nursing facilities and other
in the event of any confusion or            should evaluate how it assesses its legal    health care providers are better able to
question dealing with compliance            exposure. What is the correlation            fulfill their commitment to ethical
policies, practices, or procedures.         between the deficiency identified and        behavior, as well as meet the changes
   An effective compliance program          the corrective action necessary to           and challenges being placed upon them
should include guidance regarding           remedy? Are isolated overpayment             by Congress and private insurers.
disciplinary action for corporate           matters properly resolved through            Ultimately, it is the OIG’s hope that a
officers, managers, health care             normal repayment channels? Is credible       voluntarily created compliance program
professionals, and other employees who      evidence of misconduct that may violate      will enable nursing facilities to meet
have failed to adhere to an                 criminal, civil or administrative law        their goals, improve the quality of
organization’s standards of conduct,        promptly reported to the appropriate         resident care, and substantially reduce
Federal health care program                 Federal and State authorities? If the        fraud, waste, and abuse, as well as the
requirements, or Federal or State laws.     process of responding to detected            cost of health care to Federal, State, and
The number and caliber of disciplinary      offenses is circumvented, such conduct       private health insurers.
14306                     Federal Register / Vol. 65, No. 52 / Thursday, March 16, 2000 / Notices

  Dated: March 9, 2000.                          DEPARTMENT OF HEALTH AND                        provisions set forth in sections
June Gibbs Brown,                                HUMAN SERVICES                                  552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
Inspector General.                                                                               as amended. The grant applications and
[FR Doc. 00–6423 Filed 3–15–00; 8:45 am]
                                                 National Institutes of Health                   the discussions could disclose
                                                                                                 confidential trade secrets or commercial
BILLING CODE 4150–04–P                           National Center for Complementary               property such as patentable material,
                                                 and Alternative Medicine; Notice of             and personal information concerning
                                                 Closed Meeting                                  individuals associated with the grant
DEPARTMENT OF HEALTH AND
HUMAN SERVICES                                      Pursuant to section 10(d) of the             applications, the disclosure of which
                                                 Federal Advisory Committee Act, as              would constitute a clearly unwarranted
National Institutes of Health                    amended (5 U.S.C. Appendix 2), notice           invasion of personal privacy.
                                                 is hereby given of the following                  Name of Committee: National Institute on
National Cancer Institute; Notice of             meeting.                                        Deafness and Other Communications
Closed Meeting                                      The meeting will be closed to the            Disorders Special Emphasis Panel.
                                                 public in accordance with the                     Date: April 5, 2000.
   Pursuant to section 10(d) of the              provisions set forth in sections                  Time: 1 pm to 3:30 pm.
Federal Advisory Committee Act, as               552b(c)—(4) and 552b(c)(6), Title 5               Agenda: To review and evaluate grant
amended (5 U.S.C. Appendix 2), notice                                                            applications.
                                                 U.S.C., as amended. The contract
                                                                                                   Place: Executive Plaza South, Room 400C,
is hereby given of the following                 proposals and the discussions could             6120 Executive Blvd., Rockville, MD 20852,
meeting.                                         disclose confidential trade secrets or          (Telephone Conference Call).
   The meeting will be closed to the             commercial property such as patentable            Contact Person: Stanley C. Oaks, Jr.,
public in accordance with the                    material, and personal information              Scientific Review Branch, Division of
provisions set forth in sections                 concerning individuals associated with          Extramural Research, Executive Plaza South,
552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,       the contract proposals, the disclosure of       Room 400C, 6120 Executive Blvd. Bethesda,
                                                 which would constitute a clearly                MD 20892–7180, 301–496–8683.
as amended. The grant applications and
the discussions could disclose                   unwarranted invasion of personal                (Catalogue of Federal Domestic Assistance
                                                 privacy.                                        Program Nos. 93.173, Biological Research
confidential trade secrets or commercial                                                         Related to Deafness and Communicative
property such as patentable material,              Name of Committee: National Center for        Disorders, National Institutes of Health, HHS)
and personal information concerning              Complementary & Alternative Medicine
individuals associated with the grant            Special Emphasis Panel.                           Dated: March 9, 2000.
applications, the disclosure of which              Date: March 21, 2000.                         Anna Snouffer,
                                                   Time: 3:30 p.m. to 5 p.m.                     Acting Director, Office of Federal Advisory
would constitute a clearly unwarranted
                                                   Agenda: To review and evaluate contract       Committee Policy.
invasion of personal privacy.                    proposals.
                                                                                                 [FR Doc. 00–6474 Filed 3–15–00; 8:45 am]
  Name of Committee: National Cancer               Place: 9000 Rockville Pike, Bldg. 31, Room
                                                 5B50, Bethesda, MD 20892 (Telephone             BILLING CODE 4140–01–M
Institute Initial Review Group Subcommittee
H—Clinical Groups.                               Conference Call).
  Date: March 23–24, 2000.                         Contact Person: Sheryl K. Brining, National
                                                 Center for Complementary and Alternative        DEPARTMENT OF HEALTH AND
  Time: 6:30 PM to 1 PM.
                                                 Medicine, National Institutes of Health, 31     HUMAN SERVICES
  Agenda: To review and evaluate grant
                                                 Center Drive, Room 5B50, Bethesda, MD
applications.                                    20892–2182, (301) 496–7498, sb44k@nih.gov.      National Institutes of Health
  Place: Chevy Chase Holiday Inn, 5520
                                                   This notice is being published less than 15
Wisconsin Avenue, Chevy Chase, MD 20815.                                                         National Institute of Environmental
                                                 days prior to the meeting due to the timing
  Contact Person: Deborah R. Jaffe, Scientific   limitations imposed by the review and           Health Sciences; Notice of Closed
Review Administrator, Grants Review              funding cycle.                                  Meeting
Branch, Division of Extramural Activities,
National Cancer Institute, National Institutes     Dated: March 9, 2000.                            Pursuant to section 10(d) of the
of Health, Bethesda, MD 20892.                   Ann Snouffer,                                   Federal Advisory Committee Act, as
  This notice is being published less than 15    Acting Director, Office of Federal Advisory     amended (5 U.S.C. Appendix 2), notice
days prior to the meeting due to the timing      Committee Policy.                               is hereby given of the following
limitations imposed by the review and            [FR Doc. 00–6473 Filed 3–15–00; 8:45 am]        meeting.
funding cycle.                                   BILLING CODE 4140–01–M                             The meeting will be closed to the
(Catalogue of Federal Domestic Assistance                                                        public in accordance with the
Program Nos. 93.392, Cancer Construction;                                                        provisions set forth in sections
93.393, Cancer Cause and Prevention              DEPARTMENT OF HEALTH AND                        552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
Research; 93.394, Cancer Detection and           HUMAN SERVICES                                  as amended. The grant applications and
Diagnosis Research; 93.395, Cancer                                                               the discussions could disclose
Treatment Research; 93.396, Cancer Biology       National Institutes of Health                   confidential trade secrets or commercial
Research; 93.397, Cancer Centers Support;                                                        property such as patentable material,
                                                 National Institute on Deafness and
93.398, Cancer Research Manpower; 93.399,                                                        and personal information concerning
Cancer Control, National Institutes of Health,
                                                 Other Communication Disorders;
                                                                                                 individuals associated with the grant
HHS)                                             Notice of Closed Meeting
                                                                                                 applications, the disclosure of which
  Dated: March 7, 2000.
                                                    Pursuant to section 10(d) of the             would constitute a clearly unwarranted
                                                 Federal Advisory Committee Act, as              invasion of personal privacy.
Anna Snouffer,
                                                 amended (5 U.S.C. Appendix 2), notice             Name of Committee: National Institute of
Acting Director, Office of Federal Advisory      is hereby given of the following                Environmental Health Sciences Special
Committee Policy.                                meeting.                                        Emphasis Panel R13 Conference Grants
[FR Doc. 00–6476 Filed 3–15–00; 8:45 am]            The meeting will be closed to the              Date: April 5, 2000.
BILLING CODE 4140–01–M                           public in accordance with the                     Time: 1 PM to 2 PM.
